<html>
<title> - OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





          OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________

                           Serial No. 114-45


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Printed for the use of the Committee on Energy and Commerce
                       energycommerce.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-286 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          






























                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    98

                               Witnesses

Elliot F. Kaye, Chairman, Consumer Product Safety Commission.....     8
    Prepared statement...........................................    11
    Answers to submitted questions \1\...........................   128
Ann Marie Buerkle, Commissioner, Consumer Product Safety 
  Commission.....................................................    17
    Prepared statement...........................................    19
Robert S. Adler, Commissioner, Consumer Product Safety Commission    24
    Prepared statement...........................................    26
Joseph P. Mohorovic, Commissioner, Consumer Product Safety 
  Commission.....................................................    31
    Prepared statement...........................................    32
    Answers to submitted questions...............................   129
Ronald Warfield, Chief Executive Officer, ATV/ROV/UTV Safety 
  Consulting.....................................................    56
    Prepared statement...........................................    58
Heidi Crow-Michael, Winnsboro, Texas.............................    61
    Prepared statement...........................................    63
Cheryl A. Falvey, Co-Chair, Advertising and Product Risk 
  Management Group, Crowell & Moring, LLP........................    78
    Prepared statement...........................................    80
Erik Pritchard, Executive Vice President and General Counsel, 
  Recreational Off-Highway Vehicle Association...................    85
    Prepared statement...........................................    87

                           Submitted Material

H.R. 999, the ROV In-Depth Examination Act, submitted by Mr. 
  Burgess........................................................    99
Statement of Marietta S. Robinson, Commissioner, Consumer Product 
  Safety Commission, May 19, 2015, submitted by Mr. Burgess......   104
Letter of February 25, 2015, from Mr. Olson to Elliot Kaye, 
  Chairman, Consumer Product Safety Commission, submitted by Mr. 
  Olson..........................................................   121
Letter of March 30, 2015, from Elliot Kaye, Chairman, Consumer 
  Product Safety Commission, to Mr. Olson, submitted by Mr. Olson   123

----------
\1\ Mr. Kaye's answers to submitted questions have been retained in 
committee files and also are available at  http://docs.house.gov/
meetings/IF/IF17/20150519/103481/HHRG-114-IF17-Wstate-KayeE-20150519-
SD005.pdf.
 
          OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                         TUESDAY, MAY 19, 2015

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:20 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Michael C. 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, Brooks, 
Mullin, Schakowsky, Clarke, Kennedy, Butterfield, Welch, and 
Pallone (ex officio).
    Staff present: Leighton Brown, Press Assistant; James 
Decker, Policy Coordinator, Commerce, Manufacturing, and Trade; 
Graham Dufault, Counsel, Commerce, Manufacturing, and Trade; 
Melissa Froelich, Counsel, Commerce, Manufacturing, and Trade; 
Kirby Howard, Legislative Clerk; Paul Nagle, Chief Counsel, 
Commerce, Manufacturing, and Trade; Olivia Trusty, Professional 
Staff Member, Commerce, Manufacturing, and Trade; Michelle Ash, 
Democratic Chief Counsel, Commerce, Manufacturing, and Trade; 
Christine Brennan, Democratic Press Secretary; Jeff Carroll, 
Democratic Staff Director; Elisa Goldman, Democratic Counsel; 
Tiffany Guarascio, Democratic Deputy Staff Director and Chief 
Health Advisor; Brendan Hennessey, Democratic Policy and 
Research Advisor; and Adam Lowenstein, Democratic Policy 
Analyst.
    Mr. Burgess. Subcommittee on Commerce, Manufacturing, and 
Trade will now come to order. The Chair will recognize himself 
5 minutes for the purpose of an opening statement.


OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    The Consumer Product Safety Commission was established in 
1972 by Congress to protect consumers against unreasonable 
risks of injuries associated with consumer products. This 
statutory mission is a serious responsibility for the 
Commission, and it is critically important that Congress 
conduct oversight to ensure that public confidence in the 
Commission's adherence to its responsibilities and stewardship 
of the taxpayer's dollar. I would like to thank Chairman Kaye 
and Commissioners Adler, Buerkle, and Mohorovic for their 
testimony today.
    We will also hear from a second panel of witnesses about 
Representative Pompeo's bipartisan legislation, H.R. 999, the 
ROV In-Depth Examination Act, and the open ROV rulemaking that 
has garnered substantial bipartisan concern from members on 
both sides of the dais, and both sides of the Capital. Consumer 
safety is a top priority for this subcommittee, and at a time 
where difficult budget decisions are being made across the 
Government, it is critical that all agencies are held 
accountable for their prioritization decisions, particular 
concern about the role of sound scientific principles at the 
Commission, the interaction between the Commission and its 
regulated industries, the rulemaking agenda, and the execution 
of Congressional mandates for third part test burden reduction, 
and the Commission's continued request for new authority to 
impose user fees. There is a fundamental Constitutional issue 
with moving the power of the purse from Congress to a 
regulatory agency with no experience in disbursing fees.
    A wide range of open agenda items at the Commission require 
significant scientific evaluation and testing, from thiolates, 
to nanotechnology, to window coverings, and recreational off-
highway vehicles. Consumer confidence is rooted in the belief 
that the Commission has the capacity to base its decision on 
supportable scientific findings. It is dangerous and short 
sighted for a safety agency to move away from science and 
scientific principles, as may have happened with the Chronic 
Hazard Advisory Panel report regarding thiolates, where even 
the Office of Management of the Budget guidelines for peer 
review were ignored.
    The Commission's authorizing statute is based around the 
presumption that voluntary industry standards and cooperative 
relationships with the regulated industry are the preferred 
method of regulation for product safety. Safety is a strong 
incentive for both parties. There are a number of open 
rulemakings that fundamentally change the relationship between 
the Commission and the regulated industry. In an area where it 
is said that 90 percent of the threats to consumer safety are 
created by 10 percent of the participants, it seems 
counterintuitive to put additional barriers between the 
Commission and the regulated industry when the common ground is 
consumer safety.
    This is especially so where resources are always going to 
dictate the Commission will need help from industry in 
identifying problems. One open rulemaking fundamentally changes 
the fast track voluntary recall process, an award winning 
program established 20 years ago to address long recall 
processes, which has produced tremendous results. Under this 
program last year, 100 percent of fast track recalls were 
initiated within 20 days. The positive impact for consumers is 
real when potentially dangerous products can be taken off the 
shelves in days, instead of weeks or months.
    Finally, there has been a bipartisan--there has been 
bipartisan support to reduce third party testing burdens for 
small businesses around the United States. In 2011 Congress 
passed H.R. 2715, with explicit instructions to the Commission 
to evaluate the testing burden relief in good faith, but the 
Commission has struggled to carry out the statutory 
requirement, even with additional funding. Three and a half 
years later, small businesses are reporting they still have not 
seen any real burden reductions, and are facing seemingly 
endless comment rounds, but no real solutions.
    We are here to make certain that we are doing what we can 
to prevent tragic and unfortunate injuries from consumer 
products. However, additional funds for the Commission are 
difficult to justify when there are so many questions about the 
scientific methodology used by the Commission to support its 
regulatory agenda, and how the Administrative Procedure Act 
solicited comments are incorporated through the rulemaking 
process, and how the Commission operates without bipartisan 
support from any initiative.
    The Consumer Products Safety Commission's mission must 
remain a touchstone for its important work, and not a launching 
pad for an active estate driven by headlines, rather than 
science and economics. Such an approach compromises the trust 
in an agency that has successfully removed thousands of unsafe 
consumer products from the economy, from product--from consumer 
shelves, as well as the voluntary safety standards that build 
safety into the products on the front end.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    The Consumer Product Safety Commission was established in 
1972 by Congress to protect consumers against unreasonable 
risks of injuries associated with consumer products. This 
statutory mission is a serious responsibility for the 
Commission, and it is critically important for Congress to 
conduct oversight to ensure public confidence in the 
Commission's adherence to its responsibilities and stewardship 
of taxpayer dollars.
    I would like to thank Chairman Kaye and Commissioners 
Adler, Buerkle, and Mohorovic for testifying today. We will 
also hear from a second panel of witnesses about Representative 
Pompeo's bipartisan legislation, H.R. 999, the ROV In-Depth 
Examination Act and the open ROV rulemaking that has garnered 
substantial bipartisan concern from Members on both sides of 
the Hill.
    Consumer safety is a top priority for this subcommittee and 
at a time where difficult budgeting decisions are being made 
across the Government, it is critical that all agencies are 
held accountable for their prioritization decisions. I am 
particularly concerned about the role of sound scientific 
principles at the Commission, the interaction between the 
Commission and regulated industries, the rulemaking agenda, the 
execution of Congressional mandates for third-party test burden 
reduction, and the Commission's continued request for new 
authority to impose user fees. There is a fundamental 
constitutional issue with moving the power of the purse from 
Congress to a regulatory agency with no experience with user 
fees.
    A wide range of open agenda items at the Commission require 
scientific evaluation and testing, from phthalates and 
nanotechnology to window coverings and recreational off-highway 
vehicles. Consumer confidence is rooted in the belief that the 
Commission has the capacity to base its decisions on 
supportable scientific findings. It is dangerous and short 
sighted for a safety agency to move away from sound science and 
scientific principles as I believe has happened with the CHAP 
Report regarding phthalates where even OMB guidelines for peer 
review were ignored.
    The Commission's authorizing statute is based around the 
presumption that voluntary industry standards, and cooperative 
relationships with the regulated industry, are the preferred 
method of regulation for product safety. Safety is a strong 
incentive for both parties. There are a number of open 
rulemakings that fundamentally change the relationship between 
the Commission and the regulated industry. In an area where 
it's said that 90 percent of the threats to consumer safety are 
created by 10 percent of the players-it seems counterintuitive 
to put additional barriers between the Commission and the 
regulated industry when the common goal is consumer safety. 
This is especially so where resources are always going to 
dictate that the Commission will need help from industry in 
identifying problems.
    One open rulemaking fundamentally changes the Fast Track 
voluntary recall process, an award-winning program established 
20 years ago to address long recall processes, which has 
produced tremendous results. Under this program last year, 100 
percent of fast track recalls were initiated within 20 days. 
The positive impact for consumers is real when potentially 
dangerous product can be taken off the shelf in days instead of 
months.
    Finally, there has been bipartisan support to reduce third 
party testing burdens for small businesses around the U.S. In 
2011, Congress passed H.R. 2715 with explicit instructions for 
the Commission to evaluate testing burden relief in good faith. 
But the Commission has struggled to carry out this statutory 
requirement even with additional funding. Three and a half 
years later, small businesses are reporting they still have not 
seen any real burden reductions and are facing seemingly 
endless comment rounds but no real solutions.
    We are all here to make sure we are doing what we can to 
prevent tragic and unfortunate injuries from consumer products. 
However, additional funds for the Commission are difficult to 
justify when there are so many questions about the scientific 
methodology used by the Commission to support its regulatory 
agenda, how Administrative Procedure Act solicited comments are 
incorporated through the rulemaking process, and how the 
Commission operates without bipartisan support for many major 
initiatives.
    The CPSC's mission must remain a touchstone for its 
important work and not a launching-off point for an activist 
State driven by headlines rather than science and economics. 
Such an approach compromises the trust in an agency that has 
successfully removed thousands of unsafe consumer products from 
the economy as well as the voluntary safety standards process 
that builds safety into products on the front end.

    Mr. Burgess. The Chair will recognize the ranking member of 
the subcommittee, Ms. Schakowsky, for the purposes of an 
opening statement.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, for holding this 
important hearing about Consumer Product Safety Commission. The 
Commission, and its mission of protecting consumers from unsafe 
products, is very near and dear to my heart. I began work as a 
consumer advocate many moons ago, as a young mother working to 
get freshness dates on food. So when you go and look at the 
date on food, moi. And I know how important it is that 
consumers have access to health and safety information about 
the products that they purchase and use, and that they are 
protected against harmful products.
    In 2008 the landmark Consumer Product Safety Improvement 
Act was signed into law by President Bush. The bill was the 
product of broad bipartisan negotiation, and it marked the most 
significant reform of the CPSC and its responsibilities in 
decades. I also want to thank some of the advocates that are 
here in this room, and appreciate their work. The bill passed 
the committee 51 to 0, and the House by a vote of 424 to one. I 
was--it was slightly amended, again, on a bipartisan basis, in 
2011, and the legislation gave the CPSC additional authority 
and resources so it could become the consumer watchdog that 
Americans deserve, and, frankly, expect.
    I am proud to have authored several provisions to the bill, 
including a provision requiring mandatory standards and testing 
for infant and toddler products, such as cribs and high chairs. 
I also successfully added to the reform bill a requirement for 
postage-paid recall registration cards to be attached to 
products so that customers can be quickly notified their 
products are dangers.
    The CPSC has been incredibly successful in its efforts to 
improve consumer protection over the last few years. There was 
a 34 percent reduction in children's product recalls, just from 
2013 to 2014. The 75 children's product recalls in 2014 was the 
lowest number in more than a decade. Thank you very much. We 
have seen enhanced proactive outreach to provide consumers with 
information about the dangers and best practices associated 
with everything from window blinds, to electric generators, to 
lawnmowers. And we have seen rulemaking to reduce the 
likelihood of preventable tragedies. I applaud the Commission 
on its important work. While I am disappointed that we move 
forward with this hearing on a day that Commissioner Robinson 
was unable to appear, I look forward to hearing the 
perspectives of the other Commissioners about the CPSC's work, 
and its next steps.
    The second panel today will provide analysis of H.R. 999, 
the Ride Act. I am strongly opposed to this bill, which would 
suspend CPSC's statutory authority to complete a rulemaking 
affecting recreational off-highway vehicles, or ROVs, until 
after a study is completed at the National Academy of Science. 
It is not clear to me why this study is needed. After all, the 
CPSC has gone through its regular rulemaking process on this 
issue, taking into account the input of technical experts, the 
private sector, and the public.
    I am also not sure why the National Academy of Sciences 
would analyze the feasibility of, among other things, providing 
consumers with safety information at the point of sale. While 
the NAS has a highly skilled staff, market and consumer 
analysis is not its strong suit. It also makes no sense that 
NAS would be required to consider the impact of a rulemaking on 
ROVs used in the military. The CPSC is responsible for consumer 
products, not military vehicles. The proposed rule is 
irrelevant to military ROVs. I believe this legislation is a 
delay tactic, pure and simple. It would delay the 
implementation of the CPSC's commonsense, consumer-focused rule 
to reduce ROV rollovers, enhance safety, and increase consumer 
information.
    It is not as if this rulemaking is moving too fast. The 
risk of ROV death is not a new one, and the public comment 
period for the ROV rulemaking is currently open. There is 
nothing preventing the supporters of this legislation from 
making their concerns, and their suggestions, known. That is 
the way the process is supposed to work. What we cannot do is 
usher in a long delay for the sake of delay. The 335 ROV 
related deaths, and 506 injuries, from 2003 to 2013, I think it 
is time to act to enhance ROV safeguards, not tie the hands of 
the CPSC.
    Again, I look forward to hearing from our witnesses, thank 
them for coming today, and I yield back.
    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back. The Chair recognizes the vice chair of the full 
committee, Ms. Blackburn, 5 minutes for an opening statement, 
please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to say 
thank you to our witnesses. We appreciate that you are here. 
You know, 2008 was really the year of the recall, and since 
that point in time we have been very interested in the work 
that you are doing, and have looked at your deliverables, and 
your outcomes.
    Now, one of the things that is of tremendous concern to 
us--and I have got to tell you, I heard a lot about this during 
small business week, which was just a couple of weeks ago. And 
I was out and about in my district, visiting with small 
businesses, visiting with some retailers, and there are a lot 
of complaints that are coming about the way you all are going 
about your task, and some of the unnecessary burdens that are 
being put on retailers, and on businesses, and changes in 
reporting requirements. And I have got to tell you, I think 
there is a lot of unhappiness with the American public in how 
you are doing your job. I would say too there is probably some 
confusion as to what your mission statement is, and you are 
meeting that.
    Now, I think it is fair to say that, as we look at the cost 
to business, and the cost to consumers, and a cost-benefit 
analysis, what we want to do is drill down with you a little 
bit. We share the same goal, being certain that the supply 
chain is safe, that products are safe when consumers get those 
products. There are different ways to go about this, and we 
want to make certain that there is an accountability issue, a 
transparency issue, and a fairness issue, or standards, that 
are being met. So we will have questions, and will move forward 
with those--so want to take a moment and welcome our former 
colleague. Commissioner Buerkle, it is wonderful to see you 
back in these halls, and it is wonderful to see you back in a 
hearing room, and we appreciate the work that you are doing.
    With that, Mr. Chairman, I am going to yield the balance of 
my time to Mr. Pompeo for a statement.
    Mr. Pompeo. Thank you, Madam Vice Chairman. Look, we have 
a--thank you all for being here, Chairman Kaye, and your 
colleagues, for coming today. We have this obligation, just as 
you do, to make sure that the CPSC statutes are implemented in 
a way that is both legal, and appropriate, and useful, and gets 
the economics and the safety balance just right. I think with 
respect to the ROV rules that you all have put forward, there 
is a lot of work that could be done. I think industry is 
prepared to try and get to a really good outcome that is a 
better place than the rulemaking that is proceeding will end 
up.
    I was out last week too. I was actually on an ROV vehicle, 
out in Kansas in the woods. Wore my helmet, did all the things 
right, and I am here today to tell about it, which is good. I 
hope we can get this right, and the legislation that I have 
proposed isn't aimed at delaying. It is aimed at getting to a 
good outcome. It may cause a little more time, and a little 
more thoughtfulness, and a little more work to be done, but I 
hope we can get that right, that we can get the best science, 
and the best engineering associated with getting these rules in 
the right place, and get a voluntary standard put that industry 
can do the right thing, and get these vehicles in a safe place, 
to the right people. And I hope--and look forward to working 
with you to see if we can't achieve that. With that, I will 
yield back my time.
    Mrs. Blackburn. I thank the gentleman, and does any other 
member seek the balance of my time? None so doing, I yield 
back, Mr. Chairman.
    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back. Chair recognizes Democratic side for an opening 
statement.
    Ms. Schakowsky. Mr. Chairman, if I could just submit for 
the record Mr. Pallone's opening statement?
    Mr. Burgess. Without objection, so ordered.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Burgess, and welcome to the 
Commissioners.
    While I know this is a rescheduled hearing, and we face 
time constraints, I want to start by saying that I am sorry 
that Commissioner Robinson is unable to be here due to prior 
commitments. This is particularly true today, as she has raised 
concerns about the length of time it takes to get a mandatory 
standard passed when the voluntary standard is inadequate. Her 
views would have been of value to the subject of today's second 
panel, since the potential delay of a proposed rule for 
strengthening the safety of Recreational Off-Highway Vehicles 
(ROVs) is being discussed.
    The first part of today's hearing examines the ongoing work 
of a relatively small, yet essential Federal agency--the 
Consumer Product Safety Commission (CPSC).
    After years of CPSC being ineffective and reactive, members 
of Congress worked together and produced landmark bipartisan 
legislation, the Consumer Product Safety Improvement Act of 
2008 (CPSIA). In 2011, Congress again passed bipartisan 
legislation, giving CPSC additional flexibilities in 
implementing CPSIA (C*P*S*I*A). As a result, CPSC is now both 
an effective and proactive agency.
    Passage of CPSIA was a tremendous victory for consumers and 
improved the safety of products sold in the United States. 
CPSIA's successes include getting lead and toxic phthalates out 
of children's products and toys, strong safety standards for 
infant and toddler products such as cribs and high chairs and a 
publicly accessible database of reported unsafe products.
    As the Product Safety Commission finishes implementing 
stronger safety standards for products such as cribs, walkers, 
bath seats, toddler beds, and infant swings, we see the number 
of dangerous products on the market falling, the number of 
recalls falling, and the number of injuries falling.
    The Product Safety Commission now is moving beyond CPSIA 
implementation, and there is still a lot of hard work ahead. 
The Commission has worked aggressively to engage industry in 
the process of setting voluntary safety standards. And while 
that is essential, sometimes voluntary standards are not 
enough.
    That is why I am pleased it has begun the rulemaking 
process to protect children from the preventable strangulation 
hazard posed by cords in window blinds. In addition, the 
Product Safety Commission should ensure that any new Federal 
requirements regarding upholstered furniture flammability offer 
real public safety benefits and do not require or drive the use 
of harmful flame retardants.
    Unfortunately, some of the efforts of the Commission to 
protect consumers are being met with opposition by industry and 
members of this committee. Today's second panel will focus on 
legislation that would unnecessarily delay the implementation 
of important safety standards for ROVs that would save lives.
    ROVs can be very dangerous, especially when they are built 
without key safety measures. These vehicles, which look like 
something between a car and a go-cart, can rollover on top of 
the driver or passengers, badly hurting or killing them. In 
other cases, people have lost limbs when ejected from the 
vehicle or when a foot or arm struck an object outside the 
vehicle.
    This is another case in which voluntary standards are 
simply not providing adequate protection for consumers. CPSC 
found that between 2003 and April of 2013, there were 335 
reported deaths and 506 reported injuries related to ROV 
accidents.
    The reasonable standards being proposed by the Product 
Safety Commission require manufacturers to build certain safety 
measures into ROVs, including a minimum level of resistance for 
preventing rollovers and minimum protection to keep occupants 
inside the vehicle.
    We are very fortunate to have Heidi Crow-Michael, who has 
travelled all the way from Winnsboro, Texas, to join us today. 
In 2007, Ms. Crow tragically lost her 9-year-old son, J.T., in 
a ROV accident. I believe that her story is an important one 
for everyone on this subcommittee to hear.
    Ms. Crow-Michael has been advocating for the type of safety 
standards included in the Commission rule, so that the same 
tragedy does not befall another family. Unfortunately, the fact 
is that preventable deaths continue to occur because important 
safety features are not being built into ROVs.
    The time to get this done is now-no more delays.
    Thank you, and I yield back the balance of my time.

    Mr. Burgess. That concludes member opening statements. The 
Chair would like to remind members that, pursuant to committee 
rules, opening statements will be made a part of the record.
    We will now hear from our witnesses. I want to welcome all 
of our witnesses, and thank you for taking time to testify 
before the subcommittee. Today's hearing will consist of two 
panels. Each panel of witnesses will have the opportunity to 
give an opening statement, followed by a round of questions 
from members. Once we conclude questions with the first panel, 
we will take a brief--underscore brief--recess to set up for 
the second panel.
    Our first panel today, we have the following witnesses, 
testifying on behalf of the Consumer Product Safety Commission. 
Chairman Elliot F. Kaye, Chairman of the Consumer Product 
Safety Commission, thank you for your attendance. Commissioner 
Robert Adler, and we welcome you, sir, to the subcommittee. 
Commissioner Ann Marie Buerkle, thank you for--it is good to 
see you again. You give me confidence that there is an 
afterlife. And Commissioner Joseph P. Mohorovic, thank you so 
much for your attendance today. We are honored to have all of 
you today. Chairman Kaye, you will begin the first panel, and 
you are recognized for 5 minutes for the purposes of an opening 
statement, please.

STATEMENTS OF ELLIOT F. KAYE, CHAIRMAN, CONSUMER PRODUCT SAFETY 
 COMMISSION; ANN MARIE BUERKLE, COMMISSIONER, CONSUMER PRODUCT 
  SAFETY COMMISSION; ROBERT S. ADLER, COMMISSIONER, CONSUMER 
      PRODUCT SAFETY COMMISSION; AND JOSEPH P. MOHOROVIC, 
        COMMISSIONER, CONSUMER PRODUCT SAFETY COMMISSION

                  STATEMENT OF ELLIOT F. KAYE

    Mr. Kaye. Good morning, Chairman Dr. Burgess, Ranking 
Member Schakowsky, and the members of the subcommittee. Thank 
you for the invitation to come speak about the work of the 
United States Consumer Product Safety Commission, and our 
proposed budget for fiscal year 2016. I am pleased to be joined 
by my friends and colleagues from the Commission, Commissioners 
Adler, Buerkle, and Mohorovic, and I bring regrets from 
Commissioner Robinson.
    CPSC's vital health and safety mission touches us all in 
some way every day. From the parents of the baby, who gently 
moves his or her child throughout the day from crib, to baby 
bouncer, to stroller, and back again to the crib, or the self-
employed millennial who, on a warm spring day, relies on a room 
fan to stay cool, and an extension cord to power a computer, to 
the baby boomer who purchased adult bed rails to help care for 
an aging parent, the products in CPSC's jurisdiction are 
inseparable from our lives.
    We believe we provide an excellent return on investment for 
the American people. We run a lean operation, and we cover 
thousands of different kinds of consumer products, with a 
budget in the millions, not the billions. We are very 
appreciative of the continued bipartisan support for the 
Commission and our work. We saw this support in the 
overwhelming, nearly unanimous vote to pass the Consumer 
Products Safety Improvement Act of 2008, and the near unanimous 
passage of an update to CPSIA in 2011. Your support has allowed 
our dedicated staff to drive standards development, to make 
children's products safer, to increase our enforcement 
effectiveness, and to better educate consumers about product 
related hazards.
    Our staff has also been hard at work trying to reduce costs 
associated with third party testing, while also assuring 
compliance with the law. Congress' inclusion of the $1 million 
as part of our funding for the current fiscal year has enhanced 
those efforts. I have emphasized priority--prioritizing those 
actions most likely to provide the greatest amount of relief, 
especially to small businesses. We are set to consider at least 
three different regulatory changes to provide relief this 
fiscal year, with more in the works.
    While the burden reduction, assure compliance work 
proceeds, our continuing efforts to carry out and enforce CPSIA 
driven enhancements to consumer product safety are reflected in 
our proposed budget. Unfortunately, not all of those priorities 
and requirements are achievable at our current levels. For that 
reason, we were pleased to see the President include in his 
budget two important consumer product safety initiatives. Both 
initiatives, if funded, will advance consumer safety and 
provide real value to those in industry making or importing 
safe products.
    First, we are seeking a permanent funding mechanism to 
allow the agency to comply with the Congressional charge in 
Section 222 of the CPSIA. Section 222 called on the Commission 
to work with Customs and Border Protection and develop a risk 
assessment methodology to identify the consumer products likely 
to violate any of the Acts we enforce out of all the consumer 
products imported into the United States.
    To meet our mandate, in 2011 we created a small scale pilot 
that has been a success. However, a pilot alone does not 
fulfill the direction of Congress, and without full 
implementation, we will not be able to integrate CPSC into the 
much larger U.S. Government-wide effort to create a single 
window for import and export filing of all products. If CPSC 
can be fully integrated into the single window, we can 
transform Congress' vision of a national scope, risk based, 
data driven screening at the ports into a reality, a reality 
that would mean faster entry for importers of compliant 
products, and safer products in the hands of American 
consumers.
    Our proposed budget also seeks to address critical emerging 
and safety--emerging health and safety questions associated 
with the rapidly growing use of nanomaterials in consumer 
products. In light of the questions raised in the scientific 
community about the effects inhalation of certain nanoparticles 
might have on human lungs, concerns that center on identified 
similarities to asbestos exposure, we are proposing to 
significantly advance the state of the science as it relates to 
human exposure, especially to children, from consumer products.
    Finally, I would like to discuss an additional priority of 
mine, one that is not reflected in dollars, but to me, at 
least, makes a lot of sense. How we at the CPSC do what we do 
is often just as important as what we do. Since day one in this 
position, I have worked daily to try to establish a certain 
culture among the five of us at the Commission level. The 
Commission, and more importantly the American public, are far 
better served by an agency where we operate at the Commission 
level in a culture of civility, collaboration, and constructive 
dialogue.
    Thank you again for the invitation to speak to you about 
the CPSC and the life-saving work undertaken by our staff. I 
look forward to answering questions you may have.
    [The prepared statement of Mr. Kaye follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Burgess. Chair thanks the gentleman. The gentleman 
yields back. The Chair recognizes the gentlelady, Ms. Buerkle, 
for her question--her statement, please.

                 STATEMENT OF ANN MARIE BUERKLE

    Ms. Buerkle. Thank you, Mr. Chairman, and good morning, Mr. 
Chairman and Ranking Member Schakowsky, and distinguished 
members of this committee. Thank you for holding today's 
hearing with regard to the Consumer Product Safety Commission. 
I had the honor of serving alongside many of the subcommittee 
members in the 112th Congress, and I am delighted to be back 
here on Capitol Hill in my capacity as a Commissioner at the 
CPSC. And I do hope that today's hearing strengthens our 
partnership to keep consumers safe from unreasonable risks of 
injury.
    I have been a Commissioner at the agency since July of 
2013, and throughout this time what has continued to impress me 
is the dedication of the CPSC staff. The mission of safety is 
taken very seriously. The regulated community has also 
impressed me, not only with their eagerness to understand and 
comply with our regulations, but also with their 
entrepreneurial drive to innovate and advance safety. I am 
thankful too for the tone set by our Chairman, and joined by my 
colleagues. We offer--we often differ significantly on policy 
issues, but those differences are discussed in a mutually 
respective manner.
    As a Commissioner I have stressed three general priorities, 
collaboration, education, and balance. Number one, it is 
crucial to--that CPSC builds strong relationships with all 
stakeholders. If the lines of communications are open, we can 
tap the knowledge, insight, and expertise of many outside 
experts. This is especially important in the case of the 
regulated community. If we inspire cooperation, rather than 
hostility, we will see quicker introduction of safer designs, 
as well as timely removal of defective products, all to the 
benefit of the consumer. That is why I am deeply troubled 
regarding the discussion of high--higher civil penalties, 
changes to important programs known as retailer reporting, and 
the proposals known as voluntary recall in 6(b). Without 
question, I believe these undermine engagement and 
collaborative efforts.
    Number two, education. It is crucial to our mission. We 
need to make the regulated community aware of best practices 
and be honest regarding what we are intending to achieve. More 
importantly, we also need to engage the consumer, helping them 
to avoid hidden hazards and take advantage of safer products 
that are already available to them. A prime candidate for a 
comprehensive educational campaign is the issue of window 
coverings. Increased awareness and education will prevent many 
unfortunate injuries and death.
    And number three, while consumer safety is our top 
priority, I believe that that safety can be achieved in a 
balanced, reasonable way that does not unnecessarily burden the 
regulated community, deprive consumers of products they prefer, 
or insert Government into the market where it does not belong. 
Our statutes express a strong preference for voluntary 
standards rather than mandatory standards. Where mandatory 
standards are unavoidable, the CPSA instructs us to find the 
least burdensome solution that adequately addresses the risk.
    Mandatory standards have unintended consequences. They tend 
to stagnate, while the world of consumer products evolves 
rapidly. It makes then--sense, therefore, to revisit our rules 
periodically and make sure they are effective without stifling 
innovation. I am pleased that the Commission voted unanimously 
last week for a retrospective review of our rules, and I do 
hope it will become a more regular activity of the Commission.
    Regulation is a necessary function of the Government, and 
the Consumer Products Safety Improvement Act strengthened our 
authority. It is clear, however, the CPSIA went too far in some 
respects, forcing regulation without regard to risk, let alone 
cost. This subcommittee led the way in moderating some of the 
untoward consequences of CPSIA through its work on H.R. 2715, 
which passed into Public Law 112-28 while I was a member of the 
House. Some objectives of that law remain unfulfilled. Last 
year, the House included $1 million in our 2015 appropriations, 
thanks to Representative Blackburn, to kick start our efforts 
on test burden reduction. There is still much more we can do to 
remove unnecessary regulatory burdens in this arena, and I do 
look forward to working with this committee on those unresolved 
CPSIA issues.
    The common goal among all of us, Congress, CPSC, industry, 
and consumers, is safety. We are all people who have families 
for whom we want safe products. I have six children and 16 
grandchildren. I do now want dangerous products hurting them, 
or anyone, however, the United States Government cannot, and 
should not, try to create a zero risk society. The solutions we 
seek should be balanced, and address actual problems. Consumers 
should be protected from unreasonable risks, while the 
regulated community is protected from an arbitrary Government. 
Thank you for this time today, and I do look forward to taking 
any questions you might have. Thank you, Mr. Chair.
    [The prepared statement of Ms. Buerkle follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Burgess. The Chair thanks the gentlelady. The Chair 
recognizes Commissioner Adler, 5 minutes, please, for an 
opening statement, sir.

                  STATEMENT OF ROBERT S. ADLER

    Mr. Adler. Good morning, Chairman Burgess, Ranking Member 
Schakowsky, and the distinguished members of the subcommittee. 
Thank you for the opportunity to appear along with my fellow 
CPSC Commissioners today. I am pleased to be able to testify 
about an agency that I have been associated with in some 
fashion since its establishment 40 years ago. At the outset, I 
would point out that we are far and away the smallest of the 
Federal Health and Safety agencies, with a current funding 
level of 123 million, and a staff of roughly 560 FTEs. I want 
to put that in perspective. For fiscal year 2016, we have asked 
for an appropriation of $129 million, which is an increase of 
roughly $6 million. By way of comparison, our sister agency, 
FDA, has asked for roughly $4.9 billion in fiscal year 2016, 
which is an increase of roughly $148 million. Or, to put it 
more succinctly, FDA has asked for an increase that is larger 
than CPSC's entire budget.
    Notwithstanding our modest budget, our jurisdictional scope 
is extremely wide, encompassing roughly 15,000 categories of 
consumer products found in homes, stores, school, and 
recreational settings. Given this broad jurisdiction, the 
agency has adopted a thoughtful, data-based approach, using its 
highly skilled technical staff to figure out which products 
present the greatest risk, and we address them using our 
regulatory and educational tools in a way designed to minimize 
market disruption, while always making consumer safety our top 
priority. We don't operate alone. We have always sought to 
include our various stakeholder partners in a quest to reduce 
or eliminate unreasonable risks. Included in this group are our 
friends in the business and the consumer communities, as well 
as the various standards development bodies that work closely 
with the agency.
    And I want to note, looking from the perspective of 40 
years, just how much good work has been done. There has been an 
estimated 30 percent decline in the rate of deaths and injuries 
associated with consumer products over this 40 years. And let 
me just cite a few statistics, particularly pertaining to 
children. Over this period of time we have seen an 83 percent 
drop in childhood poisoning, a 73 percent drop in crib death, 
an 86 percent reduction in baby walker injuries, and almost 
complete elimination of childhood suffocation in refrigerators.
    I would also like to mention the tremendous strides the 
agency has taken to implement the Consumer Products Safety 
Improvement Act, which has been noted was approved by the House 
by a vote of 424-1, signed by President Bush on August 4--14, 
2008. And among the things we have done to implement the law, 
we have enforced stringent limits on lead and thiolates in 
children's products. We have promulgated the strongest safety 
standard for cribs in the world. We have made mandatory a 
comprehensive voluntary toy standard. We have written, and 
continue to write, a series of standards for durable infant 
products, like play yards and strollers, and we have developed 
new approaches to catching dangerous imported products, which 
we hope to expand.
    Since I last appeared before this committee, the Commission 
has experienced a significant turnover in members. In fact, I 
am the last one standing. Although I miss my former colleagues, 
I am pleased to welcome as new colleagues Chairman Elliot Kaye 
and Commissioners Robinson, Buerkle, and Mohorovic. Simply put, 
they are a joy to work with. They have brought new perspectives 
and insights that have freshened and sharpened my thinking on a 
host of issues, and they have done so in a way that has brought 
a new era of civility to the agency. We certainly disagree, 
vigorously sometimes, on issues, but we listen to and we trust 
one another in ways I have not seen at this agency in many, 
many years.
    A final point, Mr. Chairman, I would like to reiterate my 
concern about a set of issues that surrounds a critical 
demographic that I don't think has received enough attention of 
the past number of years, and that is senior citizens, a group 
of which I am a proud member. CPSC data show that the second 
most vulnerable population after kids is adults over 65, and I 
note this is a rapidly growing group doing to--due to the aging 
of baby boomers, and the greater longevity of our citizens. An 
interesting statistic, there are more of us in the over 65 age 
group in this country than there are people in Canada.
    But what is particularly troubling to me is that seniors, 
while comprising only 13 percent of the population, account for 
65 percent of our consumer product related deaths, and by 2020 
they, we, will be 20 percent of the U.S. population. So, given 
my concerns while I was acting Chair, I worked with staff to 
create a senior safety initiative, which is ongoing, and which 
I hope to have the Congress include, and hope to work with you.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Adler follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman. The Chair recognizes Commissioner Mohorovic, 5 
minutes for your opening statement, please.

                STATEMENT OF JOSEPH P. MOHOROVIC

    Mr. Mohorovic. Thank you, Chairman Burgess, Ranking Member 
Schakowsky, members of the committee. I very much appreciate 
the opportunity to be here today. I will keep my opening 
remarks very, very brief and focus on only one element of 
evolving CPSC policy, and that is our import surveillance. This 
is one area that I think we can dramatically improve both our 
efficiencies and--as well as our effectiveness.
    And while we are developing our strategies to better target 
illegitimate inbound consumer products, I believe CPSC can and 
should do more to facilitate legitimate trade through public/
private partnerships with those importers voluntarily willing, 
identified, and carried down the stream of commerce without 
disruption. This concept, a trusted trader program and model, 
moves beyond incremental increases in targeting to more 
evolved, account-based understanding of importers' demonstrated 
commitment to making safe products.
    But to earn CPSC's trust, traders would undergo intense 
scrutiny, including thorough reviews of their supply chain 
competencies. They would have to empirically demonstrate a 
culture of compliance reflecting the highest standards, and 
membership would have its privileges. To attract applicants, 
trusted trader status would offer fewer inspections and faster, 
more predictable time to market. But should a trader violate 
the trust we have placed in them, the Government's response 
would be swift and sure.
    No discussion of CPSC import surveillance is complete 
without addressing the $36 million annual funding level we 
outlined in our most recent budget request, and the user fees 
we hope will pay for it. I am not entirely convinced of the 
legality of the user fee mechanism. Moreover, while I am 
generally supportive of what we want to spend that money on, I 
look forward to further discussions with our staff to develop a 
more nuanced understanding of that expenditure.
    However, my potential support for that spending, whether 
from user fees or from appropriations, is predicated on 
implementation of a properly resourced trusted trader program 
that is capable of attracting robust participation. If we are 
going to ask for more money, particularly if it comes from the 
very importers whose shipments we are rooting around in, we 
need to spend some of that money making life easier for the 
good actors who voluntarily subject themselves to intense 
scrutiny. If we can develop the confidence necessary to take 
those good actors' shipments out of our haystack, finding the 
needles will be that much easier. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mohorovic follows:]
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Mr. Burgess. The Chair thanks the gentleman. The Chair 
would note that it appears that the era of good feelings is now 
settled upon the Consumer Products Safety Commission. You all 
referenced how well you work together, so the Chair takes that 
as a good sign as we move forward. And, again, I want to thank 
you all for being in our hearing. We will now move into the 
question portion of the hearing. Each member will have 5 
minutes for questions.
    And, Chairman Kaye, let me begin, and again, thank you for 
your willingness to be here, and apologize about us having to 
reschedule during the snow day. Kind of an unexpected snowfall 
in March that caught a lot of us by surprise. But thank you for 
your flexibility in rescheduling. The budget for fiscal year 
2016 requests--the Commission requests new Commission authority 
to impose undefined user fees on importers.
    I think I have already shared with you I have some 
misgivings about that, and would really welcome further 
discussion from the Commission as to how these user fees, not 
just how they are collected, but how they are disbursed. Are 
these fees that are paid into the Treasury, and then subject to 
appropriations by the Appropriations Committee, or are they 
fees that are retained within the agency for use within the 
agency? So I would like some clarification about that. And I 
would just remind the members the appropriation--we are in 
appropriations season. The appropriations for the Consumer 
Products Safety Commission I believes comes through the 
Financial Services Appropriation bill, so we all will want to 
be vigilant about that and make certain that we do pay 
attention to the agency during the appropriations.
    But there is the risk assessment methodology, which is a 
pilot program to assess hazardous imports in the Commission's 
performance, budget requests to Congress to target a percentage 
of entries sampled is identified through the pilot system for 
fiscal year 2015 but is only labeled baseline, and fiscal year 
2016 the target is to be decided. So are we on the brink of 
nationalizing a pilot program where we don't know the metrics 
for inspection and evaluation?
    Mr. Kaye. Thank you, Mr. Chairman. No, we are definitely 
not on the brink of nationalizing the program, even though the 
Government is on the brink of nationalizing the single window 
requiring electronic filing, which is a big reason why the CPSC 
is trying to do its part. We want to make sure that, as close 
as possible, by December of 2016, when the system that Customs 
and Border Protection runs to receive electronic filing is up 
and running, and there is truly one single window, that we are 
not creating an unnecessary disruption to the market by not 
being a part of that.
    But, as we envision in our appropriations request, if a 
permanent funding mechanism one way or another would allow the 
agency to collect and retain the funds solely for the purpose 
of funding this program--it wouldn't be used for any other 
reason. There is a long history of agencies with border 
authorities doing this. We took the time to study those other 
agencies and work with the Office of Management and Budget to 
come up with what was the preferred method, to not reinvent the 
wheel so that CPSC could do its part with the single window.
    Mr. Burgess. Yes, it is actually some of the activities of 
those other agencies and departments that has been the genesis 
for my concern about this. And, again, I--we are coming into 
the appropriations time. I want us to be careful about how we 
approach things. But on the single window issue, and, 
Commissioner Mohorovic perhaps you can address this as well, I 
was on the committee in the 110th Congress. That was the 
committee that actually did the reauthorization of the CPSC, 
and the toy safety bill.
    And I became very concerned--we did hearings--Chairman Rush 
was sitting in this chair at the time, but that was the year 
that so many things were imported into the country, and then 
found to be problematic. So there didn't seem to be a way to 
stop things before they came in, and then the concern became 
what happens to all this stuff in warehouses that is offloaded 
by longshoremen in Long Beach, California, and then where is it 
going to end up? Nobody seemed to talk about shipping it back 
to the point of origin and saying, you deal with it, other 
country that shouldn't have sent this stuff to us in the first 
place, because your attention was lax. So are we any better off 
today than we were in 2007 and 2008, as far as containing 
things that come into the country that may be hazardous?
    Mr. Mohorovic. Thank you, Dr. Burgess. In short, I do think 
we are in a much better position today than we were before. And 
one of the points that I remind folks of is the fact that I am 
the only non-lawyer on this Commission. So I think in terms of 
metrics for my formal education, being the only MBA, so I think 
of things in terms of risk--on return on investment. And so in 
applying that to the--to public service, I think about safety 
return on investment. And I am committed to the fact that the 
investment and the evolution of our import targeting 
activities, and the sophistication of those strategies, is the 
greatest safety return on investment that we can apply, in 
terms of our resources and our budget. It completely bypasses 
the difficulties that you mentioned, Mr. Chairman, with regards 
to recall effectiveness, et cetera, and it will ensure that we 
don't have to learn from that experience.
    Of course, before us we have the potential to scale up into 
a nationalized program a very significant program. Do I believe 
that we have a proof of concept, and do we have reason to move 
forward, based on the success of our pilot project, the RAM? 
And the question for--the answer for me is absolutely. But, 
again, I think we do have to look at more closely the 
significant IT spend so it will be able to yield the kind of 
targets, and the targeting effectiveness, that we hope to 
achieve, as well as the operationalization.
    Prior to joining the agency, I was in the conformity 
assessment business, as part of the testing community, for 8 
years, so I have had to scale up a massive supply chain, 
testing operations, and with that you expect to see significant 
economies of scale. That is something that I have yet to see in 
terms of some of the operational scope that we have identified, 
but I am sure further communication will identify that.
    Mr. Burgess. And I am certain that it will. It may even in 
this hearing. I will yield back my time, recognize the 
gentlelady from Illinois, Ms. Schakowsky, 5 minutes for 
questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman. Commissioner 
Adler, like you, I identify as a senior citizen, and wonder 
what you anticipate will be, or what already is part of this 
Commission's senior safety initiative?
    Mr. Adler. Well, thank you very much for the question. 
First thing I would like to announce is that we are 
participating in a 2015 healthy aging summit which is sponsored 
by HHS, which will be held on July 27 and July 28, and the 
Commission will be there in a listening mode. So the agency is 
committed to the senior safety initiative.
    One of the things that I asked the staff to do was to look 
at mechanical hazards, because that seems to be the area where 
seniors suffer the most. And one of the issues that we 
addressed was what can you do with respect to senior citizens 
when there are other citizens who are not senior citizens using 
the same products?
    Ms. Schakowsky. What do you mean by mechanical hazards?
    Mr. Adler. Falls, sawings, cuts, lacerations, things along 
those lines.
    Ms. Schakowsky. Um-hum.
    Mr. Adler. And so what the staff has done I think is a very 
smart thing. They first look to see products that present 
unique hazards, and they are intended for senior citizens, such 
as bed rails, and these panic buttons that seniors wear if they 
fall. The next thing they have looked at is products that 
present disproportionate risks to seniors, but that also 
present unreasonable risks to the public at large, and a 
product there I would say would be table saws.
    And then even with respect to products where the Commission 
might find that there is disproportionate injury to seniors, 
the staff is looking into areas where we can at least alert 
seniors that they are at particular risk of harm, and their 
caregivers as well. So I think it is a fairly comprehensive 
program----
    Ms. Schakowsky. Um-hum.
    Mr. Adler [continuing]. That we are doing, and I am 
delighted that the staff has taken to this with such 
enthusiasm.
    Ms. Schakowsky. Well, as the co-chair of the Senior 
Citizens Task Force, let us stay in touch on that. I am really 
interested.
    I wanted to get to the issue of flammability standards. 
The--I know the Consumer Products Safety Commission has the 
authority, under the Flammable Fabrics Act, to issue standards. 
And I know there are some promulgated flammability standards, 
and as a--including some children's products that it is 
possible, and it looks likely, have contributed to significant 
use of flame retardant chemicals that pose health risks.
    The Chicago Tribune, which was an early reporter about 
this, said the average American baby is born with the highest 
recorded levels of flame retardants among infants in the world. 
And I know recent studies have linked flammable--flame 
retardant chemicals to a wide variety of adverse health 
effects, endocrine disruption, immunotoxicity, reproductive 
toxicity, developmental effects, impaired thyroid, neurological 
function and cancer, et cetera.
    My question really is if we, one, have any studies or 
information demonstrating that flammability standards 
promulgated by CPSC reduce instances of fire-related injuries, 
and, looking--and if you have any plans to revisit--to find out 
if the issue of the flame retardants themselves is a danger?
    Mr. Kaye. Thank you, Congresswoman. So, I don't know if I 
can do justice to this topic in a minute 23, but I will do my--
--
    Ms. Schakowsky. Yes.
    Mr. Kaye [continuing]. Best. Certainly, Commissioner 
Adler's point in the beginning, thanks in large part to the 
fire community, and the CPSC staff, over time, and I believe 
this is attributable to some of the flammability standards, 
especially with clothing and children's pajamas, there has been 
a reduction of fire related incidents. The issue you are 
getting at, though, is flame retardants, and to what extent 
those have had any impact on it.
    I am not aware that flame retardants have been proven to be 
effective, and I am certainly aware of the studies that you are 
talking about, or at least some of the studies, that go to the 
potential health concern. And I can say to you that it bothers 
me even more than as a regulator, it bothers me as a parent of 
two young children that there has to be this uncertainty about 
products that we interact with, and the chemicals that might be 
in them. And a perfect example of that is a couch.
    Most people don't view a couch as a potential hazardous 
product, but if it is true that the flame retardants that the 
Trib pointed out, that have doused the foam in an attempt to 
deal with cigarette fires, have ended up getting in the dust, 
and children, as we know, go under couches, they put their 
hands in their mouth, if it is true that that has had a very 
negative impact on the health of children, that is a 
significant concern of ours.
    Ms. Schakowsky. And uncertain usefulness in reducing----
    Mr. Kaye. Correct.
    Ms. Schakowsky [continuing]. Flammability.
    Mr. Kaye. Correct. So one of the things that I have tried 
to do at my level is talk to our sister agencies, who have 
overlapping jurisdictions and similar interests in this area, 
to try to get the Government working more cohesively to address 
this uncertainty. I think consumers deserve to know answers to 
these questions as quickly as possible.
    Ms. Schakowsky. What are the other agencies?
    Mr. Kaye. The EPA, the FDA, ATSDR with CDC, and the 
National Toxicology Program as part of the National Institutes 
of Health, and the National Institute of Environmental Health 
Sciences.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Burgess. Chair thanks the gentlelady, gentlelady yields 
back. The Chair recognizes the gentlelady from Tennessee, 5 
minutes for questions, please.
    Mrs. Blackburn. Thank you, Mr. Chairman. Chairman Kaye, let 
me come to you first. Commissioner Buerkle mentioned and 
referenced the million dollars that my amendment put in to 
advancing the Consumer Products Safety Improvement Act, and I 
just want to ask you what you all have done to reduce that 
third party testing requirement, where you are in that process? 
How are you putting that million dollars to work?
    Mr. Kaye. So thank you for the $1 million, Congresswoman. 
It has certainly made a big difference. As soon as the $1 
million was appropriated, we moved, at the Commission level, 
via an amendment to our operating plan, to allocate that $1 
million to seven different projects that we had identified, 
primarily based on stakeholder feedback, but also with 
discussions at the Commission level, to try to get to this 
issue. And so----
    Mrs. Blackburn. Um-hum.
    Mr. Kaye [continuing]. Where we are now is there are three 
projects that staff is very close to sending up to the 
Commission for us to vote on to try to provide some of that 
relief. And as I mentioned in my opening statement, my 
direction to staff has been to prioritize those actions that 
will have the widest potential benefit to small businesses.
    Mrs. Blackburn. OK. Let me ask you this. In your letter to 
Senator Thune you identified three areas for--the 
determinations of lead content, finding international toy 
standards, and then guidance allowing for third party testing 
exemptions. So those are the three areas that you are----
    Mr. Kaye. No, those are actually three separate areas that 
my staff and I continue to work on, and have discussions with 
Commissioner Mohorovic. So, in total, you are talking about 10 
different projects.
    Mrs. Blackburn. OK. Commissioner Mohorovic, you want to 
respond?
    Mr. Mohorovic. I would love to, thank you. It is perfectly 
logical to wonder why, with the full commitment of the entire 
Commission behind reducing third party test burden, why we have 
achieved very little in terms of results. And that is because 
we are replying to these proposals an unreasonable 
interpretation of our statute, this language, consistent with 
assuring compliance. And the problem is, very quickly, it is 
inconsistent with established CPSC policy. If you looked at the 
component part testing rule, which was non-controversial----
    Mrs. Blackburn. So you are in a bureaucratic----
    Mr. Mohorovic. We are----
    Mrs. Blackburn [continuing]. Quagmire?
    Mr. Mohorovic. Absolutely, yes.
    Mrs. Blackburn. OK.
    Mr. Mohorovic. Absolutely, Congresswoman.
    Mrs. Blackburn. So you can't get to the outcome, the 
deliverable, because you are still talking among yourselves?
    Mr. Mohorovic. Not until we change that standard. I 
wouldn't recommend----
    Mrs. Blackburn. OK. What is the timeline for getting it 
finished? We want this finished, so when are you going to have 
it finished by?
    Mr. Mohorovic. So we will have three in the next few months 
to vote on, and then there is more to come after that.
    Mrs. Blackburn. Give me few months.
    Mr. Mohorovic. I----
    Mrs. Blackburn. I mean, a month, 2 months, 3 months? What 
do you mean by that?
    Mr. Mohorovic. I think that within June we will have the 
first up, and then two more by September.
    Mrs. Blackburn. OK. All right. So that is going to be your 
deliverable. Let me ask you something else. I mentioned being 
out, and a lot of dissatisfaction, and the way you are going 
about the 11/10 rule, all the public comment, except one, was 
against that. But I think what I am hearing is you moved 
forward with a little bit more of a heavy hand than what you 
would represent to us.
    And you say you want to be engaging the industry, and you 
want to be collaborative, but what I--the feedback I am 
getting, it is those are your words, but your actions are much 
more heavy handed, that you have determined what you want as 
the outcome, thereby--you are going to let people think they 
are participating, but in the end, you are the rulemaker, and 
you are going to get your way. So do you feel like that is a 
collaborative atmosphere, and trying to work with the industry? 
And how would you respond to those type of comments that are 
made about the way you all are approaching rulemaking?
    Mr. Kaye. Is that for me? I am happy to----
    Mrs. Blackburn. Yes, sir.
    Mr. Kaye [continuing]. Answer that. And----
    Mrs. Blackburn. You are the Chairman.
    Mr. Kaye. And is that question specifically to 11/10 rule, 
or more general?
    Mrs. Blackburn. It is specifically to 11/10, but in 
general, when it comes to dealing with industry.
    Mr. Kaye. Sure, so I will address both. The 11/10 rule is 
in a definite pause at this point. I was not the Chairman when 
that came up, and that was not part of what I worked on, but as 
soon as I became Chairman I engaged our staff, and I worked 
with them to make sure that they were doing much more 
collaborative engagement with the--with our----
    Mrs. Blackburn. Are you still advancing that?
    Mr. Kaye. No. It is not moving right now. It is in a----
    Mrs. Blackburn. OK.
    Mr. Kaye [continuing]. Pause mode.
    Mrs. Blackburn. You are going to put it completely in 
pause?
    Mr. Kaye. It is in pause mode. It is already----
    Mrs. Blackburn. OK.
    Mr. Kaye [continuing]. Completely paused, and what we 
have----
    Mrs. Blackburn. OK.
    Mr. Kaye [continuing]. Been doing is working with our 
stakeholder community, through an advisory panel, on the issue 
of the single window in our imports. We are running a pilot 
that is going to be coming out, the FR notice, in a few months, 
and we are trying to get it right. And so we are having----
    Mrs. Blackburn. OK.
    Mr. Kaye [continuing]. Those exact collaborations that you 
are talking about.
    Mrs. Blackburn. OK. My time is out, and I have got one 
other question, but I will submit that question to you in 
writing. And I thank you all, and I yield back.
    Mr. Burgess. Chair thanks the gentlelady. The Chair now 
recognizes the gentleman from Texas, Mr. Olson, 5 minutes for 
questions, please.
    Mr. Olson. I thank the Chair, and welcome to our witnesses. 
A special welcome to a former House colleague, Ann Marie 
Buerkle. Good to see you again, Ann Marie.
    I want to talk about nanotechnology. As a 1985 graduate of 
Rice University in Houston, Texas, we are proud that two of our 
professors, Robert Curl and Richard Smalley, won the Nobel 
Prize for nanotechnology. In fact, Dr. Smalley taught me 
Chemistry 102, so it is very special to me about 
nanotechnology.
    Chairman Kaye, I wrote you a letter on February 25 about 
this issue. The fact that your budget requests for $5 million 
more for nanotechnology--the research center is almost 85 
percent of the proposed budget increase. That caught my eye. I 
appreciate your response by letter, and, Mr. Chairman, I ask 
unanimous consent to enter my letter and Chairman Kaye's 
response in the record.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Olson. Thank you. I only have a few questions to 
clarify issues from your letter. You stated that the reason 
that CPSC needs five million is--for a new research center is 
because your work has ``identified significant data gaps 
regarding exposure to nanomaterials present in consumer 
products.'' Can you elaborate on what these data gaps are, more 
details on the data gaps, sir?
    Mr. Kaye. Absolutely, and it is not only that we have 
identified, Congressman, those data gaps, it is that the larger 
nanotechnology initiative, the NNI, that is the collaboration 
that I think that everyone would want to see from the Federal 
Government, where all the agencies that have a present on nano 
are working together, actually, the NNI working groups have 
identified this data gap. And it really goes to understanding 
the exposure from consumer products that have nanomaterials in 
them.
    And so there are plenty--there is a billion dollars--more 
than a billion dollars that have been--billions of dollars that 
has been spent by the Federal Government on advancing 
nanotechnology, but none of that, or very little of that money 
has gone to understanding the specifics of consumer product 
exposure, which is a unique exposure pathway.
    If you have a child that is out swinging a tennis racket, 
and every time that child hits that--hits a ball, some 
nanoparticles fly off, and the child is breathing those 
nanoparticles in, and those nanoparticles in, and those 
nanoparticles supposedly mirror asbestos, these are the types 
of critical health and safety questions that we want to get at, 
and are behind our request.
    Mr. Olson. Also in your letter you listed four categories 
as criteria for success. The first one was to develop, and this 
is a quote, ``robust test methods to determine and characterize 
human exposure to nanomaterials.'' What defines a robust 
testing method?
    Mr. Kaye. That is what I leave to our toxicologists. 
Certainly I think that is what this working group has been 
working on, with the money that Congress has been giving us, 
and that we, in conjunction with the National Science 
Foundation, as well as a number of manufacturers in other 
agencies, would hope to get to those answers.
    I can't--I am not a technical expert. I can't decide what 
reaches that threshold of robustness, but I think we have got 
the technical expertise at our staff level to be able to make 
that determination.
    Mr. Olson. In your letter you expect to staff this research 
center with 12 senior scientists, 15 technicians, 10 post-
doctoral students, and 12 graduate students. These positions 
come from your current staff, or come from outside?
    Mr. Kaye. I think they would come from outside. It would be 
part of the funding.
    Mr. Olson. How much expertise does your current staff have 
on these nano-issues? Because they have been working this since 
2011, I do believe.
    Mr. Kaye. We have some expertise. I think we--it is thin, 
though. We have a thin bench. We have a phenomenal 
toxicologist, who is our representative in this space with the 
other agencies on the NNI, but, admittedly, it is not a deep 
bench, and I think that is one of the reasons why we are not 
trying to go in the more costly way, and try to just hire 
internally and procure a bunch of expensive test materials that 
we might not end up needing. We are trying to do the more cost 
efficient way of building off a successful model, and pursue it 
through the NSF.
    Mr. Olson. How about stakeholders in nanospace? What kinds 
of interaction do you have with these stakeholders?
    Mr. Kaye. Through the NNI working groups, there is a good 
amount of interaction our staff reports back.
    Mr. Olson. Anybody else--the NNI mean other agencies 
working on nano with yourselves, or just--that is pretty much 
the primary agency?
    Mr. Kaye. So there is----
    Mr. Olson. The EPA? Who else is working--what other 
agencies are----
    Mr. Kaye. Department of Defense, Homeland Security. There 
is--there are many, many agencies as part of NNI.
    Mr. Olson. OK, that is my questions. Yield back by saying 
go Rockets.
    Mr. Burgess. Chair thanks the gentleman, the gentleman 
yields back. The Chair now recognizes Mr. Guthrie from 
Kentucky, 5 minutes for your questions, please.
    Mr. Guthrie. Thank you, Mr. Chair. And I was preparing for 
the hearing today, and I talked about Commissioner Buerkle, and 
showed up, and it is you. I am glad to have you back. I didn't 
realize that you are in this row, and really enjoyed serving 
with you, as Mr. Pompeo and I spent 4 years of our life in the 
State of New York. It was always fun to talk about what was 
going on with you back there.
    So I do have a question, it is--in table saws. I guess when 
we were serving together, I had table saw manufacturers in my 
district, and I understand that the CPSC has begun a special 
study of National Electronic Injury Surveillance System data to 
obtain information about the type of table saws involved in 
incidents, along with other information about incidents.
    And this study began on July 2014, and it concerns me, 
because it seems to me, and I am not sure, but it seems to me 
that no outreach has--to members of the industry by the CPSC 
was--for this study. And for years the industry has tried to 
work cooperatively with CPSC, and the industry's input could 
have been of value. So, Commissioner Buerkle, was there any 
outreach to the industry representatives or manufacturers 
regarding this special study?
    Ms. Buerkle. Thank you, and it is good to be back here on 
Capitol Hill. To--in fact, a specific request was made that 
would--we would reach out to industry and allow them to 
participate and be a part of that survey, and it did not 
happen. So, you know, I think that is--goes to the point I made 
earlier about collaboration and outreach. I think it is----
    Mr. Guthrie. Um-hum.
    Ms. Buerkle [continuing]. Incumbent upon the agency to make 
sure we have these conversations with industry beforehand. 
Whether it is before a survey, or before it is a proposed rule, 
that we engage with them so that we go forward, and we get the 
right information.
    I will say that NICE is one of the--it is a data collection 
system that we use, and it avails us of a lot of very helpful 
information. And--so, to that end, that is an important 
project. But having stakeholder engagement before the survey 
goes out, I think, is crucial.
    Mr. Guthrie. You know, a lot of them are concerned about 
mandating certain technologies, particularly patent questions 
that are mandating a specific technology in a Federal standard. 
And there are patent concerns that have been raised throughout 
the table saw petition discussions over the years. And is the 
Commission aware that there are 140 patents related to the 
proposed technology held by the petitioner to mandate this 
technology on all table saws?
    Ms. Buerkle. Are you referring that question to me?
    Mr. Guthrie. Yes, ma'am.
    Ms. Buerkle. Well, let me say this. Quite frankly, and 
quite honestly, my colleague, Commissioner Adler, this is his 
pet project.
    Mr. Guthrie. Um-hum.
    Ms. Buerkle. And I don't mean to pass the buck, because 
this is not a priority of mine, nor do I think it should be a 
priority of the agency. But to your point about the patents, 
and the concerns about that, I have tremendous concerns about 
that. But it is not a project, quite frankly, that I think 
should be a priority of the agency right now.
    Mr. Guthrie. OK. I have one more question for you before 
we----
    Ms. Buerkle. Thank you. OK.
    Mr. Guthrie [continuing]. You recently stated--I am sorry, 
I couldn't see you through Mr. Pompeo there. You recently 
stated that the sole basis for CHAP's recommendation to the ban 
of most widely used chemicals was a cumulative risk assessment 
which found that the majority--I guess Citizens' Health 
Advisory Panel's what--recommendation, which found that the 
majority of the risk associated with these chemicals was from 
another chemical, DEHP. Can you explain your concerns for using 
cumulative risk assessment as a basis for such regulatory 
determination?
    Ms. Buerkle. Thank you. The CHAP, of course, is a--and then 
thiolate proposed rule is of great concern to me. It has been 
of concern to me since the CHAP issued its report, because I 
believe the CHAP report should have been a public--should have 
been subject to a public peer review at that point. So from 
that point on, to me, the system, and the whole process, has 
been flawed.
    The cumulative risk assessment that you are talking about 
is one of my concerns, and that--it--the process that is used, 
that is not well accepted in the scientific community, 
cumulative risk assessment. So I think that goes to the 
process, and the validity, and the integrity of the CHAP 
report. More importantly, though, I think--and certainly 
another grave concern I have is when the CHAP did their review, 
they used very old data, that was--data that was before CPSIA, 
and before the ban of those thiolates. So that study, to me, 
and the CHAP report, is almost--it is, it is irrelevant because 
it doesn't use timely data.
    So the Commission has taken on analyzing the more recent 
data, and I have constantly and consistently said, and 
advocated that we put that, the findings and the analysis of 
the staff on the more current data out for public comment. It 
should be put out for at least 60 days, and the staff should 
comment on how they are going to use that analysis relative to 
the proposed rule. Because, in order to get comments from the 
public, we have to include that information in the proposed--in 
that opportunity for them to comment.
    Mr. Guthrie. OK. Chairman Kaye, are you concerned about 
cumulative data, and do you believe it should be out for public 
comment?
    Mr. Kaye. I agree with Commissioner Buerkle that the 
staff's analysis should go out for public comment, and I was 
the one who directed staff, at the beginning of the process, to 
even undertake that analysis. And my hope is that we will reach 
an agreement in the coming days, when the staff is ready to put 
that out for analysis, for it to go out.
    As far as the cumulative risk assessment, I have to respect 
the work of the CHAP, because that is the statutory regimen 
that was set up by Congress in Section 108 of the Consumer 
Products Safety Improvement Act. That was the scientific 
direction, or the policy direction, to the CHAP members, which, 
by the way, were picked through the National Academy of 
Sciences as the leading experts around the world on this issue. 
And so, considering that that is what the statute told them to 
look at, and that is what they looked at, I respect that 
decision on their part.
    Mr. Guthrie. Thank you, my time has expired.
    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman. Chair recognizes the gentleman from Kansas, Mr. 
Pompeo, 5 minutes for your questions, please.
    Mr. Pompeo. Thank you, Mr. Chairman. Mr. Kaye, I want to 
talk about the ROV rulemaking. You testified before the 
Appropriations Committee. You described the hearing as the 
longest in--the hearing that was held as the longest in the 
CPSC's history. Went late into the night, many panels, many 
witnesses. I appreciate you all taking the time to do that. Now 
I want to make sure that we don't cut short this process, that 
we get the data right, the science, and the engineering, and 
technology right. That is why I have introduced a piece of 
legislation. Have you had a chance to take a look at that----
    Mr. Kaye. I have.
    Mr. Pompeo [continuing]. 999?
    Mr. Kaye. I have.
    Mr. Pompeo. And I didn't see your name as a co-endorser, 
but I am looking forward to hearing you today say that you 
think it is something that wouldn't make sense, to make sure 
that industry can work alongside you, and get a chance to get a 
set of voluntary standards that make sense.
    Mr. Kaye. So, thank you, Congressman, and I know that you 
have been particularly interested, and I appreciate that, since 
the time you have been in office in the work of the CPSC, and I 
think that is a good thing. I think it is important to have 
this continued dialogue.
    The ROV issue is one of great significance to the 
Commission. We are taking it very seriously. Similar to the 
work on directing staff to do an analysis on the thiolates 
issue, I directed staff to redouble their efforts to engage 
with the voluntary standards effort to try to reach a solution. 
I think that that is the preferred solution many of us would 
like to see, if they can adequately address the hazard, and it 
can be substantially complied with.
    As far as the bill is concerned, unfortunately, I am not 
going to be able to tell you what you want to hear. I don't 
have the ability to co-endorse, even if I wanted to.
    Mr. Pompeo. You can just say it here this----
    Mr. Kaye. Yes. I--sounds like I could say it, but based on 
where we are, and our discussions, I think it is well intended, 
but, unfortunately, it would have a negative impact for three 
reasons. One, I don't want to call it a delay, but it looks 
like a delay, even if it is not intended to be, and those 
delays cost lives. Every year we are looking at getting close 
to now 80 dates per year, many of them children, associated 
with ROVs. So every year that this issue is not addressed, 
whether it is through a robust voluntary standard, or a 
mandatory standard, is more deaths, and I think that that is 
something we should all be concerned about.
    Second of all, there are real costs. Every time that there 
is a death, you are talking about, from an impact the community 
and society, about $8 million, as our staff estimates it, from 
an economic standpoint. So with 100 and--if it is a 2-year 
study, and you are talking about 150 deaths, that is upward 
near a billion dollars in cost to society that would result 
from this.
    And probably in the area, from a timing perspective, and I 
just had a conversation with Mr. Pritchard, who you will hear 
on the second panel, before we came here, the staff and the 
voluntary standards body, meaning industry, are really at a 
position that I don't think they have been at for many, many 
years, where they are finally engaging in a substantive 
technical discussion to try to resolve these issues. If this 
bill were to pass, it puts out for question for 2 years one of 
the key areas that both industry and the staff are driving to 
try to solve now. I just don't think that that is going to help 
the timing of it.
    Mr. Pompeo. I appreciate that. No one wants more deaths. I 
mean, no one is advocating for delay in order to achieve that 
result. I know I am not, no one on this committee would either. 
Party--it is a bipartisan piece of legislation. I know industry 
would want that either. I don't think it--because of that, I 
think it is required. I think you have to get the data.
    I am not going to go through it, but there--but I have seen 
testimony from staff that says that we don't have the 
engineering and technology, right? The--Bob Franklin on your 
staff said we would have to look at the data, looking at 
exposure over time to the different ROVs. It might be possible 
to do something like that, but we have not done it.
    I am thrilled to hear that you are having these discussions 
with industry, and that you are making progress. That is 
absolutely a preferred solution, I think, for the CPSC, and 
from my perspective as well, it would be a great outcome. But I 
would hope that you would be prepared to at least suspend the 
rulemaking for a period of time. Put it on hold, keep it out 
there as something that might happen in the event that the 
discussions don't move forward in the way that--sounds like you 
have at least some optimism, as do I. I would love to see you 
at least consider suspending the rulemaking, or put it on hold 
while those discussions were happening. If they fall apart, 
industry and you can't get together, then so be it, you can 
continue to proceed. Would you at least consider that?
    Mr. Kaye. Well, one, I can't--I don't have the power 
unilaterally to suspend the rulemaking, so that would have to 
be a Commission decision. And I would say that, from my 
perspective, I do think, whether industry likes it or not, one 
of the reasons that we have reached this situation, where we 
are at a position where everybody is trying to finally reach a 
solution, I think that everyone has proper incentives. And, 
from my perspective, the fact that the CPSC has taken it 
seriously to this point, and is prepared to move toward a 
mandatory standard, has provided the types of conditions that 
have created this environment. And I so I think that it is 
incumbent upon us to keep moving forward. As I mentioned, the 
deaths, they do certainly weigh on me, and so that is not 
something, at this point, that I think would be a positive.
    Mr. Pompeo. Well, I hope you will reconsider that. I may or 
may not be the incentive structure that has been achieved, but 
we have a June 19 deadline now for comments to come in. Those 
comments, I know, will be critical of the rule from many in the 
industry. I hope that doesn't put--I want to keep it in a 
constructive way, and I hope that this deadline won't 
artificially create animosity where I think there is a chance 
to really get it right, save lives, and get the rule right. So, 
with that, Mr. Chairman, I yield back.
    Mr. Burgess. Chair thanks the gentlemen, gentleman yields 
back. The Chair recognizes the gentlelady from Indiana, 5 
minutes for questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman. Indiana has a large 
presence of juvenile product manufacturers in the state that 
make everything from strollers to car seats, and I have heard 
firsthand about the challenges that they face with regards to 
redundant testing requirements that might do nothing to advance 
safety, while siphoning away money that could have been spent 
on R and D in these companies, innovation and resources like 
additional employment.
    And one Hoosier manufacturer told me recently the Consumer 
Product Safety Improvement Act was passed--since it is passed, 
they have spent $12 \1/2\ million in testing costs alone. And 
that is not--that is because they not only have to test every 
platform that the products are on, but every SKU as well. So 
not only do they spend an average of $8,900 to test every new 
stroller or cradle design, but they have to spend an extra 
$1,000 to test every paint, every new paint color as well.
    And so I think we all agree that the safety of our children 
is of utmost importance, and shouldn't be compromised, however, 
I think we have to draw the right balance, and--to ensure that 
the companies have the needed resources to do further R and D 
to ensure their products are safer. And so, Mr. Chairman, I 
have a question to you that--with this in mind, what actions 
have you taken in the past year to provide relief to companies 
with respect to these--cost of these third party testing 
requirements?
    Mr. Kaye. Thank you, Congresswoman. One of the areas that 
we found really interesting, and this has been discovered by 
our small business ombudsman, and I don't want to get 
Commissioner Mohorovic upset, since it involves his prior 
occupation, but we have found that a lot of the third party 
labs are testing for services that are not required.
    And so our small business ombudsman and his office provide 
phenomenal support and assistance working with small 
businesses, and I would encourage any of the members who have 
small businesses in particular that have issues to reach out to 
Neal Cohen of the CPSC because he can work with companies to go 
through their testing reports and to find out whether or not 
they really need certain testing.
    Now, he doesn't actually go line by line, but what he says 
is, here are some general guidances, and here are some 
questions that you should be asked. He really does a phenomenal 
job of empowering a lot of companies, and I think that has gone 
a huge way to addressing some of these issues.
    Mrs. Brooks. Thank you. Commissioner Mohorovic?
    Mr. Mohorovic. Thank you, Congresswoman. I think what you 
will get is a lot of the dodging tactics from the agency to try 
to explain why we haven't achieved much in terms of measurable 
outcomes in reducing the cost and burden of third party 
testing. We have all of the resources we need. We have the 
legal authority. We just lack the will to be able to enact very 
many of the policies and suggestions that have come before the 
agency.
    So we can blame the testing labs, we can blame retailers 
for retail protocols, we can dodge and weave on this as long as 
we want, but, as I said earlier, it is frustrating for me 
particularly because it is so--it lacks alignment. It is so 
inconsistent with established CPSC policy. If we applied the 
same appreciation for risk tolerance that we did in the 
promulgation of the Component Part Testing Rule, we would have 
all of the emphasis, and staff would be able to recommend 
countless means to reduce the cost and burden without any 
adverse health or safety impact.
    Mrs. Brooks. Thank you. Chairman Kaye, it is my 
understanding that a million dollars of your 2015 budget was to 
be allocated to reducing the needless and duplicative testing 
burdens. Can you explain what actions you have actually taken 
in leading the Commission to fulfill that role? What--how have 
you reached out, what do companies expect to see from this 
relief if we have, you know, mandated that in your budget?
    Mr. Kaye. Sure. And one of the limitations in--on--I agree 
with Commissioner Mohorovic that we do have a lot of what we 
need, but we don't have everything that we need. But one of the 
areas is that it is a one-time appropriation, which means we 
cannot staff up from it. We can't count on--it is not prudent 
to hire a bunch of people without knowing how you are going to 
pay for them in the following fiscal year, so most of this 
money has gone through contracting. So we contract out with 
organizations who can do a lot of the technical work to figure 
out if there is possibility for relief. But ultimately our 
staff has to take that work. There has to be resources 
internally to be able to turn that work around, and to try to 
make it something actionable.
    And so the three areas that I mentioned in response to 
Congresswoman Blackburn's questions have to do with providing 
this exact type of relief. Looking, for instance, at natural 
wood, and whether or not, if you use natural wood alone, you 
have to test for certain heavy metals that are required by law. 
We keep trying to check off lists of materials and types of 
products that you don't actually have to test to to avoid these 
costs. And that has been the theme, both in terms of 
stakeholder engagement and internal deliberations, that we are 
trying to pursue to provide--to make it worth the while.
    Mrs. Brooks. Thank you. My time is up. I yield back.
    Mr. Burgess. Chair thanks the gentlelady. The Chair 
recognizes the Ranking Member of the full committee, Mr. 
Pallone, 5 minutes for your questions, please.
    Mr. Pallone. Thank you, Mr. Chairman. My question is of 
Chairman Kaye. There have been concerning reports of young 
athletes that have non-Hodgkin lymphoma and other blood 
cancers, and who also have been playing sports on athletic 
fields that are filled with crumb rubber coming from tires, 
which often contains cancer causing chemicals. This past 
October I wrote to the Agency for Toxic Substances and Disease 
Registry explaining that I believe additional research is 
needed into whether synthetic turf athletic fields increase the 
risk of lymphoma, leukemia, and other blood cancers. In the 
agency's reply, they stated that they are supporting efforts by 
the Commission in this area.
    Yet in 2008 the Commission released a statement saying that 
field filled with crumb rubber are ``OK to install, OK to play 
on,'' and I was pleased to hear more recently that a 
spokesperson explained that the 2008 statement does not reflect 
your current views. So I just wanted to ask, is it correct that 
your views are not reflected in that 2008 report, and do you 
agree that additional research and study is necessary to 
determine whether crumb rubber used in synthetic turf athletic 
fields presents any public health dangers? And also, is the 
Commission committed to working with other Federal agencies to 
obtain this information, and to ensure young athletes playing 
on these fields are protected? Just ask you, Mr. Chairman.
    Mr. Kaye. Thank you, Congressman, and thank you for your 
leadership on this area. I think you have three questions 
embedded in there, so I am going to try to address all three--
--
    Mr. Pallone. Sure.
    Mr. Kaye [continuing]. In turn. The first is, you are 
absolutely correct that that 2008 release does not reflect my 
views of the state of play, and I think it is important to note 
that that 2008 didn't--release didn't even reflect, as far as I 
understand it, the technical staff's views at the time, that 
there was a political effort at the time at the Commission to 
say something in the headline of the release that may not 
actually reflect the state of play, which is basically that 
those products are safe.
    I think there is a big difference in looking at the lead 
exposure that might exist from the blades of the grass and 
determining that, based on a small sample size, the staff was 
not able to say that there are--were disconcerting levels of 
lead in those fields in that particular aspect. That is very 
different from saying these things are safe to play on. Safe to 
play on means something to parents that I don't think we 
intended to convey, and I don't think we should have conveyed. 
So that is the answer to the first question.
    The answer to the second question is, absolutely we are 
working with our Federal partners to try to figure out a better 
and faster way, working together, to see if an issue such as 
crumb rubber can be resolved more quickly. As I mentioned to 
the Ranking Member earlier, we are working with EPA, we are 
working with NIH, through their center down in Research Trial 
Park, North Carolina, the National Institute of Environmental 
Health Sciences and the National Toxicology Program, CDC, 
ATSDR, and then also the FDA. We are trying to figure out a way 
for the Government to come together, use our existing resources 
and authorities to address these issues. Parents don't care 
which acronym-name Government agency is supposed to do what. 
They just want answers, and they want this uncertainty 
resolved.
    And the third question--I apologize, I can't even remember 
what the third one was. If you could--if you wouldn't mind 
asking me again?
    Mr. Pallone. Well, I am just--I think you are, you know, 
just really basically trying to find out what your view is, and 
what the Commission is doing, and whether you are working with 
other Federal agencies----
    Mr. Kaye. Absolutely.
    Mr. Pallone [continuing]. On the issue.
    Mr. Kaye. Absolutely.
    Mr. Pallone. All right. Thank you very much.
    Mr. Kaye. Thank you.
    Mr. Pallone. Thank you.
    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman. The gentleman from Illinois, Mr. Kinzinger, 
recognized 5 minutes for your questions.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here today, and it is nice to have you in front of the 
committee.
    Chairman Kaye, it seems that banning a chemical that has 
been deemed safe by other Government agencies opens the door to 
the use of substitutes that have been far less studied, and 
with far fewer scientific and performance data available. Is 
the agency prepared to deal with the market and potential 
safety repercussions of transitioning from well tested 
thiolates to the uncertainty associated with any potential 
substitutes?
    Mr. Kaye. Well, this gets into, Congressman, some of the 
answers to Congressman Pallone. There is a larger issue going 
on from a public policy matter, where, unfortunately--and the 
concept that you are getting to is regrettable substitution, 
where one chemical is banned, and we don't really have a full 
sense, from a scientific and safety perspective, what the 
substituting chemical will be. I think that is a failed public 
policy, I have to admit.
    I think the better approach, and this can be done working 
with industry, and this would be something that I would like to 
see happen, is for the Government and industry to come together 
to not only focus on which chemicals shouldn't be used, but to 
try to get to a faster way to figure out which chemicals should 
be used. So, as a public policy matter, that is my preference. 
Unfortunately, neither the resources or the authorities and the 
directions that agencies have been going in for a long time are 
moving in that direction.
    But, again, as part of these collaborative efforts that I 
am trying to undertake, and that we are trying to undertake 
from CPSC with these other agencies, that is one of the key 
goals that we are looking at.
    Mr. Kinzinger. Yes, and I think, you know, until we get to 
that point, where we can have that perfect system, we--I think 
we ought to be very careful when we look at banning substances. 
Because if we don't have a situation in place where we can do 
all the studying of alternatives, I think, you know, we ought 
to be very careful.
    Let me--following the thiolate rulemaking, Commissioner 
Buerkle noted in--her concern on banning chemicals that have 
been in use for many years, and there is risk even studying 
what little is known about the substitutes. So you said you 
agree with that. I want to see--Commissioner Buerkle, what are 
your thoughts on the idea of banning something with unknown 
substitutes to follow?
    Ms. Buerkle. Thank you for your question. As you note, that 
was one of my concerns when the MPR came out, that we are not 
proposing substitutes be used that we know little--less about 
than we know about the chemicals that are already banned. My 
more general concern, with regards to the CHAP, and I have, 
both in comment and--here today, and also in previous 
statements--was the whole process for how the CHAP report was 
done, and now this proposed rule. And I think we really need to 
take a step back.
    Whether it is regarding chemicals, or whether it is 
regarding any of the things we do, we are a data driven agency. 
And so to make sure that we have the data correct, and to make 
sure that the processes we follow are correct, and that the 
CHAP followed a process that the entire scientific community 
can accept as credible is very key to our agency, and the 
credibility of our agency. It has been noted the American 
people rely on information coming from us, so it is important 
that we get it right. And so if it takes a little more time, if 
it requires a request to Congress that we can't promulgate that 
rule within 180 days after the CHAP report was issued, so be 
it. We have to make that request, because it is incumbent upon 
our agency to get it right, to take the time that we need to 
do.
    Mr. Kinzinger. Yes, and, you know, I want to add to that 
especially--I guess maybe to reiterate what you said. You know, 
I understand that there is, in many cases, a need for 180 days. 
Going past deadlines isn't fun, it is nothing that any of us 
like to do. But I think at the risk of maybe getting something 
wrong, versus getting something right, even if we have to go 
past a little bit of a deadline, I think, frankly, Republicans, 
Democrats, Americans, Independents, far right, far left would 
all agree that that is probably a preferable way to go. And so 
that is, you know, some of the concerns we have there.
    Chairman Kaye, I want to go to a bit of a different subject 
just real quick. In the preamble for the proposed rule on 
voluntary recalls, the CPSC indicated that it has encountered 
firms that have deliberately and unnecessarily delayed the 
timely implementation of the provisions of their correction 
action plans. How many firms have deliberately and 
unnecessarily delayed the implementation of provisions of their 
corrective action plans?
    Mr. Kaye. Congressman, I will have to follow up and give 
you an answer to that. I don't know the answer to that 
question. The voluntary recall rule, as my colleagues know very 
well, at this point, from our continued reiterations of our 
positions on it, is not something that has been a high priority 
for me. I have had higher priorities that go to saving lives. I 
am not saying the rule is without merit. I think it has some 
value, but it has not been something that I have spent a lot of 
time on. I thought that early----
    Mr. Kinzinger. Well, can you give me, like, an example 
maybe of----
    Mr. Kaye. I can certainly give you anecdotal examples of 
where we have reached a situation--the agreements are 
voluntary. So we have reached a voluntary corrective action 
plan with a company, and we notice, when they file their 
quarterly reports, that they are not doing what they said they 
were going to do. They are either not engaging on social media, 
or they are not attempting to reach out and put forth the 
amount of resources and effort that they said they would. I--
one, I wouldn't name a company, even if I could----
    Mr. Kinzinger. I understand.
    Mr. Kaye [continuing]. But I can't name a company at this 
point. But I thought Commissioner Adler, last week, during a 
public meeting that we had, when this topic came up, had a 
phenomenal suggestion, where he asked our staff to spend a few 
months collecting this data, and reporting back to the 
Commission to see whether or not this is a real issue. And, to 
Commissioner Buerkle's point, we are data driven, and I think 
that will be a useful exercise, and we will all be curious to 
see that.
    Mr. Kinzinger. Good. Well, yes, I would be interested too, 
and I just want to point out, let us make sure, if you are 
going to throw out the entire system, that it is very data 
driven. So, with that, thank you all for being here, and I will 
yield back.
    Mr. Burgess. Chair thanks the gentleman, gentleman yields 
back. The Chair recognizes the gentleman from Oklahoma, Mr. 
Mullin, 5 minutes for questions, please.
    Mr. Mullin. Thank you, Mr. Chairman, and thank you to the 
Commissioners for taking the time to be here. I know you guys 
have a very busy schedule too, and anytime you've got to come 
to the Hill, you have got to be thrilled about that, right?
    But, you know, we are all held accountable for statements 
that are made, and sometimes, when you are sitting in a 
position, Chairman, that you sit in, your agency carries a 
pretty big stick, and your statements can be devastating to 
people that are producing a product that depend on retail 
sales. Would you agree with that?
    Mr. Kaye. Absolutely, and I think about that all the time. 
There is a lot of thought that goes into what I say, whether I 
end up saying something like that or not.
    Mr. Mullin. Well, I am holding in my hand right here a 
story that was published by an Indianapolis news agency, and it 
says, ``If a consumer was to see a gas can at a retail that 
contained a flame arrester, we would encourage them to select 
such a model, as it provides a vital layer of fire 
protection.'' That was made by your agency. Are you familiar 
with that news story?
    Mr. Kaye. I am.
    Mr. Mullin. Do you agree with that statement?
    Mr. Kaye. I don't understand enough about the technical 
aspects of flame arresters, I am sorry. That is just not--on 
gas cans. I can't comment one way or another.
    Mr. Mullin. But your statements have an impact, and the 
flame arresters that we are talking about, they are only sold 
on commercial cans. They are not in retail stores. Are you 
familiar with that?
    Mr. Kaye. No, I am not familiar with that. I don't have any 
familiarity with gas cans, other than talking to our staff, and 
knowing that the issue that you are talking
    about----
    Mr. Mullin. But someone on your staff made this statement. 
And the reason why I say this is because, in my district, I had 
a manufacturer that produced retail gas cans, and your agency 
came out and made a statement referring to retail gas cans, 
and--has nothing to do with retail gas cans. They are only 
regulated by OSHA and the EPA with the flame arresters. Once 
again, we are held accountable for what we said, and your 
agency made a statement that could have possibly cost real 
people their jobs. So does the CPSC regulate commercial safety 
cans?
    Mr. Kaye. We do not, but the statement that you are talking 
about, I am not sure that it is inconsistent with the position 
that our staff has taken in the voluntary standards capacity.
    Mr. Mullin. OK. Well, then let us talk about that. Are you 
aware that the commercial safety--a commercial safety can with 
the flame arrester failed an ASTM protocol?
    Mr. Kaye. I am not.
    Mr. Mullin. But you made the statement. Your agency made 
the statement encouraging people to go out and buy a gas can 
from a retail store that doesn't even exist, and the purpose of 
it is to keep children from being burned. But you guys made a 
statement that failed that exact test, but yet the consumer can 
does. It met those ASTM standards. You don't see a problem with 
this?
    Mr. Kaye. I see a problem with it if what you are saying is 
100 percent accurate, and I am not----
    Mr. Mullin. Well, I am holding the news story.
    Mr. Kaye. No, I understand----
    Mr. Mullin. You guys sent the press release.
    Mr. Kaye. I am not doubting----
    Mr. Mullin. And this is coming from ASTM, their testing 
protocol, that said it failed.
    Mr. Kaye. I understand that, but what I am--my point is 
that I am not familiar enough with the area that you are 
talking about where I can give you the type of answer you are 
looking for.
    Mr. Mullin. Then how about we do this? Why don't you get 
back with my office----
    Mr. Kaye. Absolutely.
    Mr. Mullin [continuing]. Since you guys are making those 
statements, and since they affect real jobs in my district? Why 
don't you get back with me and give me that information so you 
can be spun up to it, so the next time that your agency opens 
its mouth and gives a statement like that, maybe they are 
informed about what they are saying.
    Mr. Kaye. Would you be willing to have a meeting with my 
staff and me on it?
    Mr. Mullin. Without question. We would----
    Mr. Kaye. OK.
    Mr. Mullin [continuing]. Love to, because we would----
    Mr. Kaye. OK.
    Mr. Mullin [continuing]. Like to get to the problem of 
this, too, because statements like that hurt real people.
    Mr. Kaye. Excellent. So my hope is that you would be 
willing to come out to our testing center, where we have the 
technical expertise, and we can walk through the gas cans, and 
we can look at the issue together. Would you be willing to do 
that?
    Mr. Mullin. Absolutely I would.
    Mr. Kaye. That would be great.
    Mr. Mullin. But then we have got to come back and--if I am 
going to be willing to do that----
    Mr. Kaye. Yes.
    Mr. Mullin [continuing]. If what I am saying is accurate, I 
would like you guys to make another statement publicly----
    Mr. Kaye. You got it.
    Mr. Mullin [continuing]. Backing that up.
    Mr. Kaye. Yes. Let us get to the answers together, and then 
we will figure out where we go from there. And you have my 
commitment that if it turns out that we said something that we 
both believe----
    Mr. Mullin. Well, it is not if. The statement says it, and 
you guys----
    Mr. Kaye. No, the rest of it----
    Mr. Mullin. We checked it.
    Mr. Kaye. If we said something that is not accurate, you 
have my commitment that I will say something that is accurate. 
I am not going to leave it to anybody else. I will say it.
    Mr. Mullin. Good enough. Mr. Chairman, I yield back. Thank 
you.
    Mr. Kaye. You are welcome.
    Mr. Burgess. Chair thanks the gentleman. The gentleman 
brings up an excellent point. Several years ago I actually took 
a field trip up to the CPSC testing facility, and it was a very 
illuminating day. My understanding is you are in new 
headquarters now, and I think the gentleman is quite right. A 
field trip of the subcommittee out to the CPSC would be both 
informative and instructive, and probably help the Commission, 
as well as the subcommittee members, and we will see about 
putting that in the process.
    I would just also observe that I am, in addition to being 
chairman of this subcommittee, I am the chairman of the House 
Motorcycle Caucus. I know that is kind of a disconnect, but I 
am. And going over to talk to that group one day after we 
passed the CPSIA here in the subcommittee in 2007 or 2008, 
there was a young man, very young man, probably 12 or 13 years 
old, who stood up in front of the group and said, ``Mr. 
Congressman, if you promise to give me my motorcycle back, I 
promise I won't eat the battery anymore.'' Apparently youth 
motorcycles had been--the sale had been prohibited during the 
bill that we passed, and until those technical corrections were 
enacted, it made it very, very difficult for the people who 
sold youth motorcycles and their parts. So we do have to be 
careful about the unintended consequences.
    Seeing no other members--did you have a follow up question, 
Ms.----
    Ms. Schakowsky. No.
    Mr. Burgess [continuing]. Schakowsky? Seeing no further 
members wishing to ask questions for this panel, I do want to 
thank you all for being here today. This will conclude our 
first panel, and we will take an underscore brief recess to set 
up for the second panel. And thank you all very much for your 
time today.
    [Recess.]
    Mr. Burgess. The subcommittee will come back to order, and 
I will thank everyone for their patience and taking time to be 
here today. We are ready to move into our second panel for 
today's hearing, and we will follow the same format as during 
the first panel. Each witness will be given 5 minutes for an 
opening statement, followed by a round of questions from 
members.
    For our second panel, we have the following witnesses. Mr. 
Ronald Warfield--I have here ``Buck,'' is that correct?--CEO of 
ATV/ROV/UTV Safety Consulting. Ms. Heidi Crow-Michael from 
Winnsboro, Texas. Thank you for being here today. Ms. Cheryl 
Falvey, Co-Chair of the Advertising and Product Risk Management 
Group at Crowell, Moring, and Mr. Erik Pritchard, Executive 
Vice President and General Counsel for the Recreational Off-
Highway Vehicle Association.
    We will begin our second panel with Mr. Warfield. You are 
recognized for 5 minutes for the purpose of an opening 
statement, please.

  STATEMENTS OF RONALD WARFIELD, CHIEF EXECUTIVE OFFICER, ATV/
   ROV/UTV SAFETY CONSULTING; HEIDI CROW-MICHAEL, WINNSBORO, 
TEXAS; CHERYL A. FALVEY, CO-CHAIR, ADVERTISING AND PRODUCT RISK 
 MANAGEMENT GROUP, CROWELL & MORING, LLP; AND ERIK PRITCHARD, 
EXECUTIVE VICE PRESIDENT AND GENERAL COUNSEL, RECREATIONAL OFF-
                  HIGHWAY VEHICLE ASSOCIATION

                  STATEMENT OF RONALD WARFIELD

    Mr. Warfield. Thank you, Mr. Chairman, Ranking Members, and 
members of the committee. Thank you for this opportunity to 
testify in support of H.R. 999, the ROV In-Depth Examination, 
or the RIDE Act. My name is Buck Warfield, and I have extensive 
experience in dealing with safe and appropriate use of off-
highway vehicles. First a bit of background. I was employed by 
the Maryland State Police as a police officer, or a trooper, 
for over 23 years, and I retired in 1993. With regard to off-
highway vehicle experience, in 1985 I was trained and certified 
by the Specialty Vehicle Institute of America, SVIA, as an ATV 
instructor. In 1989 I became an ATV Safety Institute, or ASI, 
licensed chief instructor, and I continued to be contracted by 
ASI to train, license, and monitor other ATV instructor staff.
    With respect to recreational off-highway vehicles, known as 
ROVs, or side by sides, I have assisted several agencies, 
including military and Government groups, in developing primary 
ROV training programs, and combining the Recreational Off-
Highway Vehicle Association, or ROHVA, approved training 
program in December of 2010. I currently serve as chief ROV 
driver coach/trainer, and I have a training facility at my farm 
in Sikesville, Maryland which has been designated by ROHVA as a 
driver/coach training center, and that is one of only three in 
the entire United States. On a personal note, I have logged 
over 900 hours as an operator of my personal ROV since 2006. I 
currently own two ROVs, utilized primarily for ROV training, 
and two more utilized for daily facility maintenance at my 
training center and farm.
    I participated in the development of the ROV basic driver 
course curriculum, which is designated for current and 
prospective recreational off-highway vehicle drivers. The basic 
driver course is a training opportunity that provides current 
and experienced ROV drivers the chance to learn and practice 
basic skills and techniques. It addresses basic operation, and 
emphasizes safety awareness related to specific--related 
specifically to ROV operation. The overall aim of the driver/
coach course is to provide for drivers' development in the area 
of skill and risk management strategies. This includes learning 
to foster driver gains in basic knowledge, skill, attitude, 
values, and habits.
    I am here to support H.R. 999. The legislation would only 
pause the Consumer Product Safety Commissions ongoing ROV 
rulemaking until the National Academy of Science, in 
cooperation with the Department of Defense, and the National 
Highway Traffic Safety Administration, perform a study of the 
vehicle handling and requirements proposed by CPSC. I do not 
claim to be an engineer, or to fully understand the complex 
engineering issues, but I do understand that these are some 
basic disagreements on a select few issues between engineers at 
CPSC and the engineers who work for major manufacturers. I 
appreciate the CPSC is well intended. I also know that the 
manufacturers develop safe, capable vehicles for me, my family, 
my friends, and the students that I train to use--with power 
sport vehicles, including training countless people who have no 
prior experience with ATVs or ROVs show me that these vehicles 
are safe, with amazing capabilities when operated as intended.
    H.R. 999 is a narrowly tarrowed--tailored--is narrowly 
tailored to examine, first of all, the technical validity of 
CPSC's proposed lateral stability and vehicle handling 
requirements. Also, the number of ROV rollovers that would be 
prevented if the rule were adopted, and whether there is a 
technical basis for the proposal to provide information on a 
point of sale hang tag about a vehicle's rollover resistance on 
a progressive scale. And, lastly, the effects on the utility of 
ROVs used by the U.S. military if the rule were adopted.
    So, in conclusion, I think the best way to--forward would 
be for the industry and CPSC to work together to find a 
voluntary solution that works for all the parties, and protects 
the safety of ROV drivers and passengers. Barring a cooperative 
solution, the best and safest way forward is for independent 
third party experts to make sure that we get it right. Thank 
you, sir.
    [The prepared statement of Mr. Warfield follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Mr. Burgess. Gentleman yields back, the Chair thanks the 
gentleman. Ms. Crow-Michael, you are recognized for 5 minutes 
for the purpose of an opening statement, please.

                STATEMENT OF HEIDI CROW-MICHAEL

    Ms. Crow-Michael. Thank you. My name is Heidi Crow-Michael, 
and I would like to thank you all for allowing me to speak 
today on behalf of my son, J.T. Crow.
    I play many roles in life. I am a homemaker, and an 
advocate, but most importantly a mother to five children. J.T. 
Crow is my second child, and firstborn son. He was a happy and 
extraordinary 9-year-old boy. At school he was a straight A 
student with perfect attendance. He loved science, and learning 
about birds and butterflies. J.T. also loved being outside and 
playing sports like soccer and football.
    J.T.'s life was cut short when he went for a ride in a 2007 
Yamaha Rhino 450. While riding at a slow speed around a slight 
curve, the ROV suddenly and inexplicably rolled over. Through 
J.T. was wearing a safety belt, he was thrown from the Rhino 
ROV, and then crushed by the half ton vehicle as it rolled 
over. Paramedics rushed J.T. to the emergency room, but he had 
sustained more injuries than his young body could handle. My 
son died that day, when he was 9 years old, and my life was 
forever changed. On a daily basis I live with the pain of the 
tragedy that struck my family, and the fear of knowing that it 
could happen to other families. This fear has led me to become 
an advocate for ROV safety and industry reform. I have been 
given the opportunity to use my son's life to make a 
difference, a difference that can save lives.
    As we sit here this morning, the ROV industry is one that 
sets its own safety standards and makes its own rules, and 
innocent people are paying the price. I am not against ROVs. I 
just want safe ROVs. Many consumers buy ROVs because they have 
four wheels, and sometimes seat belts, roll bars and roofs, and 
they look safer than ATVs, but ROVs are not safe. And it has 
been many years, and every year, every day that there is not a 
better solution implemented for ROV safety is a day that more 
people, more children, our children, are put at risk.
    When we wrote the Citizens' Report on Utility Trained 
Vehicle Hazards and Urgent Need to Improve Safety and 
Performance Standards in February of 2009, asking for safety 
and performance standards, including minimum occupant 
containment stability and seat belt standards, we were hopeful 
our recommendations for safer ROVs would become standard. We 
asked for action. Nothing happened. An already unacceptably 
high casualty rate will continue unless action is taken.
    In 2014 ROV use resulted in at least 61 deaths, and eight 
more in 2015. While less stringent than the recommended safety 
measures in the Citizens' Report, the CPSC has proposed 
standards that would significantly improve ROV safety. If the 
ROV industry really wants to protect their consumers, why 
wouldn't they want to make the safest product possible? Why 
wouldn't they want to do all they could do to protect the 
people who purchase their vehicles? I have been given the 
opportunity to speak to many families, and we all share a 
common bond. We have lost someone we love in an ROV rollover 
accident. Perhaps the most painful part of my role as an 
advocate for this cause is hearing the heart wrenching stories 
from those families.
    I know I am not alone in asking this committee to allow the 
CPSC to move forward with its rulemaking to issue ROV safety 
standards and stop the senseless death of our loved ones. In my 
journey over the last 8 years, I have collected the names and 
stories of those who shared a fate similar to J.T.'s, and it is 
for them that I speak today. For Ellie Sand, age 10, Kristin 
Lake, 11, Dusty Lockabey, 14, Ashlyn Vargas, 12, Dani Bernard, 
18, Stephanie Katin, 26, Whitney Bland, 13, Sydney Anderson, 
10, and Abbey West, age 13.
    Our stories do not begin and end on the day our loved ones 
were killed or injured. The battle is ongoing for all of us. We 
will miss soccer games, dance recitals, graduations, birthdays, 
weddings, and holiday celebrations. We will live with the 
consequences forever. Today you have the opportunity, and I 
think the obligation, to help me honor these young lives, their 
families, and the life of my son, J.T. Crow, but it is more 
than that. You have an opportunity to become a part of their 
story, the part that offers hope for the future by bringing 
about change. Our request is simply common sense. It is 
unimaginable that anyone would feel differently. If you don't 
do something about it, can you live with yourself?
    Delay is a problem. Delay puts our children at risk. It has 
been too many years and too many tragedies already. We urge you 
not to contribute to any further delay. Thank you for your 
time.
    [The prepared statement of Ms. Crow-Michael follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Burgess. Chair thanks the gentlelady, gentlelady yields 
back. Ms. Falvey, you are recognized, 5 minutes for opening 
statement, please.

                 STATEMENT OF CHERYL A. FALVEY

    Ms. Falvey. Thank you, Chairman Burgess, Ranking Member 
Schakowsky, distinguished members. Thank you for providing the 
opportunity to discuss the statutory framework that the 
Consumer Product Safety Commission will use to address the kind 
of risk we have just heard about. I have served as the General 
Counsel of the Consumer Products Safety Commission from 2008 to 
2012, during the implementation of both the Virginia Graeme 
Baker Pool and Spa Safety Act, as well as the Consumer Product 
Safety Improvement Act. Both of those statutes made voluntary 
standards mandatory. I have been asked to discuss the way the 
CPSC statutes interrelate to the voluntary standards process to 
inform the committee's consideration of H.R. 999.
    My oral remarks will focus on three important aspects of 
the interrelationship between the voluntary standards process 
and mandatory law. First, safety standards developed by the 
CPSC require time and effort to develop in order to meet the 
statutory requirements. It is not easy. Section 7 of the CPSA 
provides the CPSC with the authority to promulgate rules that 
set forth performance standards and require warnings and 
instructions, but only when the CPSC finds such a standard 
reasonably necessary to prevent or reduce an unreasonable risk 
of injury, and that the benefits of such regulation bear 
reasonable relationship to the costs of the regulation. The 
Commission must consider and make appropriate findings on a 
variety of issues, including the degree and nature of the risk, 
along with the utility of the product, and the costs and means 
to achieve the objective.
    To issue a final rule, the Commission must find that the 
rule is necessary to reasonably eliminate or reduce the 
unreasonable risk of injury, and that issuing that rule is in 
the public interest. Must also find that the rule imposes the 
least burdensome requirement that would adequately reduce the 
risk of injury. Congress recognized just how difficult it is 
for CPSC to do that when it enacted the CPSIA, and made it 
easier to make voluntary standards mandatory law in the Danny 
Keysar Child Safety Notification Act, due in part to resolute 
efforts by Ranking Member Schakowsky, which streamlined the 
process of making voluntary standards mandatory law.
    Second, the CPSC statute favors voluntary standards when 
they eliminate the risk of injury, and are complied with by 
manufacturers. If a voluntary standard addressing the same risk 
of injury is adopted and implemented, the Commission cannot 
proceed with a final rule unless it finds that the voluntary 
standard is not likely to eliminate the risk of injury, and 
that--and/or that it is unlikely that there will be substantial 
compliance with the voluntary standard. These can be very 
difficult findings for the Commission to make. As a data driven 
agency, the CPSC staff has to look for hard science to 
demonstrate the intended safety benefits of both its standards 
and consensus driven voluntary standards, but the CPSC must 
still attempt to extrapolate from current data the likely 
future effects of its proposed rulemaking.
    The legislative history of the CPSA sets a high bar, 
directing the CPSC to consider whether the voluntary standard 
will reduce to a sufficient extent, such that there will no 
longer exist an unreasonable risk of injury. Predicting that 
there is an unreasonable risk in certain circumstances is easy. 
It can be extremely difficult when you are dealing with the 
highly technical issues of vehicle rollover. And that is why it 
takes staff time to develop the rulemaking packages, and why it 
is over 500 pages long. Determining whether there is 
substantial compliance is also a challenge when so many 
products come into the country now from overseas. The 
legislative history of the CPSC--CPSA directs that the 
Commission look at the number of complying products, rather 
than the number of complying manufacturers, and those products 
are coming in from all over the world.
    Third, and finally, the challenges of making voluntary 
standards mandatory law is one of the most important lessons we 
learned in both CPSIA and the Virginia Graeme Baker Pool and 
Spa Safety Act. These voluntary standards are iterative. They 
evolved over years. And unless we know that the test methods 
can be replicated and are reliable, making them law prematurely 
can be very dangerous.
    [The prepared statement of Ms. Falvey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Burgess. Chair thanks the gentlelady. Chair recognizes 
Mr. Pritchard, 5 minutes for an opening statement, please.

                  STATEMENT OF ERIK PRITCHARD

    Mr. Pritchard. Good afternoon, Mr. Chairman, Ranking 
Member, and members of the committee. Thank you for this 
opportunity to testify in support of H.R. 999, the ROV In-Depth 
Examination, or RIDE Act. My name is Erik Pritchard. I am the 
Executive Vice President and General Counsel of the 
Recreational Off-Highway Vehicle Association, known as ROHVA. 
ROHVA is a not-for-profit trade association sponsored by Arctic 
Cat, BRP, Honda, John Deere, Kawasaki, Polaris, Textron, and 
Yamaha. ROHVA was formed to promote the safe and responsible 
use of recreational off-highway vehicles, called ROVs, or side-
by-sides, in North America.
    Between 2011 and 2014 alone, ROV sales are conservatively 
estimated to total more than 750,000 in the U.S. These popular 
off-highway vehicles are used safely by families, emergency 
personnel, and the U.S. military in a variety of environments 
ranging from mud, to sand, to forest, to trails. This is a high 
growth industry, and a bright spot in the U.S. manufacturing 
economy. ROHVA is accredited by the American National Standards 
Institute to develop standards for ROVs, and has worked with 
numerous stakeholders for years to develop those standards, 
commencing in 2008, and culminating in voluntary standards 
approved in 2010, 2011, and most recently in September 2014. 
The CPSC has been involved throughout that process.
    The newest ROV voluntary standard includes a new dynamic 
stability and handling test and requirement, as well as new 
alternative seat belt reminders that were proposed by the CPSC 
staff, and driver side speed limiting seat belt interlocks 
found in over 60 percent of the 2015 model year ROVs. 
Nonetheless, and essentially simultaneously with the approval 
of the new voluntary standard, the CPSC voted out the pending 
notice of proposed rulemaking regarding ROVs. The NPR largely 
ignores the new voluntary standard. Instead, the CPSC staff 
analyzed the prior 2011 version of the voluntary standard, and 
based it on testing of vehicles from model year 2010.
    In a supplemental briefing submitted 3 weeks after the 
voluntary standard was approved, the CPSC staff summarily 
rejected the new standard because it did not match the 
rulemaking. The CPSC's proposals are not supported by science 
or real world application. One area of concern is the CPSC's 
application of on road vehicle dynamics to vehicles used in 
rugged off-highway environments. Meanwhile, the CPSC actually 
continues to conduct testing in support of the NPR it has 
already voted out.
    While our review of the CPSC's data underlying the 
rulemaking is not yet complete, I can share a couple initial 
observations with you. According to the CPSC's data, where seat 
belt use is known, approximately 90 percent of riders suffering 
fatalities did not wear the seat belts that are provided in 
every ROV. Next, approximately 60 percent of the severe injury 
rolled sideways incidents in the data were reported by a 
Plaintiff's law firm. This is a representative example of the 
reporting relied on by the CPSC. A 46-year-old man was injured 
by the tip over of an ROV, whose unpadded roll cage crushed his 
foot on June 16, 2006. While it has been a year since his 
accident, foot is still swollen, he finds it extremely 
difficult to walk, and is in considerable pain, end.
    Putting aside the bias of a Plaintiff's lawyers reporting, 
this is not a scientifically sound approach to gathering data. 
It tells us nothing about how or why the alleged tip over 
occurred, and it is not possible to draw any statistical 
conclusions based on this limited information. These vehicles 
are significantly more complex than other products under the 
CPSC's jurisdiction. The ROV manufacturers and engineers have 
serious safety concerns about the effects of the CPSC's 
proposals. The RIDE Act will help resolve these matters by 
having these proposals examined by an independent agency, such 
as the National Academy of Sciences.
    This commonsense approach, resolving technical issues 
before considering implementation, should be supported by 
everyone. Some, however, have attempted to characterize the 
RIDE Act as further delay in a long process. The record, 
however, does not support that criticism. The voluntary 
standard has been updated as technology has evolved. The fact 
that the CPSC spent years drafting a proposed rule based on 
vehicles from 2010 cannot be evidence that the rule should be 
pursued, nor is the quantity of pages in the briefing package 
relevant to their quality. And the NPR comment period has been 
extended only because the CPSC failed, until recently, to turn 
over the documents and data underlying the rulemaking.
    This morning an ROV industry group is meeting with CPSC 
staff to discuss voluntary standards. ROHVA members went with--
met with the CPSC on May 5. The effort to establish a mutually 
agreeable voluntary standard is the best approach, a view, that 
I understand, is shared by the CPSC in light of this morning. 
But in the meantime, the NPR remains pending. It would be a 
mistake to proceed to a mandatory rule without first conducting 
the testing contemplated by the RIDE Act. It is imperative that 
we get this right for the families, emergency personnel, and 
the military who use these vehicles in a variety of off-highway 
terrains and conditions. Thank you for your time.
    [The prepared statement of Mr. Pritchard follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Mr. Burgess. The Chair thanks the gentleman, gentleman 
yields back. The Chair is prepared to recognize Ms. Schakowsky. 
Five minutes for your questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman. I just have to 
begin by saying, as a consumer advocate pretty much all of my 
adult life, I have been around these conversations for a very 
long time, and, frankly, I think this panel is reflective of 
what happens to consumers, three to one, on not doing these 
kinds of mandatory standards.
    You know, one example--I have been working on this rear 
visibility, and the number of children who are killed in--
when--often their parent or grandparent drives their car over 
backwards on them. We had one in Chicago recently. And now we 
are going to have, by 2018, mandatory in every car there is 
going to be a camera. That bill was passed in 2008, and an 
average of two children die every week. Well, heck, that is not 
that many kids. 355 deaths from these vehicles since--between 
2003 and 2013. And thank you, Ms. Crow-Michael, for reading 
some of those names, and bringing it home to us. And thank you 
for your courageous testimony today.
    I would like to hear from the industry, instead of why it 
all ought to be voluntary--because you said 15--I guess that is 
under the voluntary standards. Fifteen people have died this 
year, is that right, already? Isn't that--200 and--2015?
    Ms. Crow-Michael. Yes, correct.
    Ms. Schakowsky. Yes. So that is under voluntary standards, 
I take it. Well, maybe cost/benefit doesn't make that 
worthwhile to have mandatory standards. I disagree. And I think 
that, while you want to get it right, absolutely, I am sick of 
hearing, the fault is the trial lawyers, the fault is the user 
who doesn't put on the seat belt. And if we can do something to 
save another life, and I am with you, then we need to have 
mandatory standards.
    So I am wondering if you had any feeling that you had any 
reason not to trust the vehicle that your son was using when 
you looked at that.
    Ms. Crow-Michael. In the beginning, I really feel like the 
vehicles give a perception of safety, but ROVs are not safe. 
And the fact that so many children have lost their lives has 
proven that, time and time again.
    Ms. Schakowsky. And when your son was bucked into the 
vehicle, did you trust that the seat belt would keep him from 
being thrown from the vehicle, just like it would in a car?
    Ms. Crow-Michael. Of course. We think the products that we 
buy are safe.
    Ms. Schakowsky. Did the vehicle your son was riding look 
like the kind of vehicle that would lead to more than 300 
deaths? Or I guess you already said the vehicle----
    Ms. Crow-Michael. Absolutely not.
    Ms. Schakowsky. Proponents of the CPSC rule, an activist 
like yourself, had said that the type of everyday use of the 
ROVs that lead to rollover deaths is not necessarily obvious to 
riders, particularly children. Do you agree?
    Ms. Crow-Michael. I agree.
    Ms. Schakowsky. And based on your work advocating on behalf 
of other victims of ROV accidents, do you believe that children 
are particularly vulnerable?
    Ms. Crow-Michael. I do, and I believe waiting for more data 
is waiting for more deaths.
    Ms. Schakowsky. So what I would like to see is, rather than 
saying we have to have perhaps years more of study, and years 
more of death, that the industry work with the advocates, and 
with the CPSC, and with their investigators, to--if you don't 
think the rule--the mandatory rule is proper, then figure out 
what a mandatory rule ought to look like. Didn't you say, Ms. 
Falvey, that there are imports, et cetera, and that, you know, 
we need to look at all of those?
    Ms. Falvey. The way the statute would work, the Commission 
would need to know that there is substantial compliance before 
they relied upon a voluntary standard. Or they could just 
decide, we don't have confidence in these foreign 
manufacturers, and that they will be compliant, and move 
forward with their final rule.
    Ms. Schakowsky. So why don't we have a mandatory standard 
that would apply to all, including imports? I mean, I just feel 
so strongly that when we have an opportunity to do something 
that is going to save a life, and I know that there are 
complicated mathematics that figures out money spent, is it 
worth a life? I don't really abide by that, and it seems to me 
that 335 is enough, I think your son is enough, that we ought 
to move ahead. I support moving ahead as quickly as possible 
with the mandatory standards, and I yield back.
    Mr. Burgess. The Chair thanks the gentlelady, gentlelady 
yields back. I will recognize myself, 5 minutes for questions.
    Ms. Falvey, let me just, first off, say thank you for your 
work on the Virginia Graeme Baker pool standards. I was on the 
subcommittee when that bill went through, and actually added 
the language for ornamental pools because, as you may recall, 
we lost a number of people at a Fort Worth water garden just 
shortly before that came through, which underscored to me the 
necessity of including ornamental pools, as well as backyard 
pools. But when you were doing the drain cover recall, did you 
go from a voluntary standard to a mandatory standard during 
that process?
    Ms. Falvey. Yes, we did.
    Mr. Burgess. And what were the advantages, or perhaps the 
disadvantages, in moving from the voluntary to the mandatory 
standard?
    Ms. Falvey. The advantage is always safety and stopping 
death. You are always tempted to move as quickly as possible in 
order to address an addressable risk. The disadvantage in that 
circumstance is----
    Mr. Burgess. Let me just interrupt you there for a second, 
if I could, because--which is the more expeditious path, the 
voluntary or the mandatory?
    Ms. Falvey. It depends, but it can be more expeditious to 
rely on the voluntary standard. You get industry and the CPSC 
staff working together on a standard that everyone can agree 
on.
    The problem with doing it too quickly, and mandating it as 
law when it is not quite ready to be law is that, in that case, 
we didn't make things safer fast enough, in that the drain 
covers were tested by different labs in different ways. We 
didn't know that the test results--exactly how to do the tests 
at the lab level, and there were different labs passing 
different drain covers, and we ended up with pools with brand 
new drain covers installed that weren't compliant. And we had 
to recall those, pull them out, and put them in, properly 
tested.
    That works well in the voluntary world, where things can be 
iterative and change over time. When you make it mandatory law, 
it changes the equation. And so while it is helpful, from a 
safety perspective, to move as quickly as possible, and that is 
always the CPSC's goal, if you don't do it right, it can cost 
an enormous amount of money, and it doesn't save lives. And 
that is what we want to try to avoid.
    Mr. Burgess. Very well. Now, we--Mr. Pritchard, I guess I 
should ask this question of you. The list that Ms. Crow-Michael 
read is impressive, but it is also impressive because of the 
young age of so many of the people who were--who met their 
demise. Is there--do you placard these machines with an age 
restriction, or a recommendation for training under certain 
ages?
    Mr. Pritchard. We do. The industry's recommendation is 
that, in order to drive an ROV, you need to be at least 16 
years of age, and have a valid driver's license. These are not 
toys. These are not meant to be driven by children. This is on 
the machines, it is part of the free online training that is 
available to everyone. It is certainly part of the hands-on 
training that is available. Children don't belong behind the 
wheel of these vehicles.
    We have covered a lot of ground here in sort of very short 
form. One thing I do want to clarify is that, when we talk 
about a voluntary standard, and the requirements under the 
voluntary standard, that is enforceable. That is enforceable by 
the CPSC. It is not voluntary in the sense of an opt-in and 
opt-out. It is the standard. And that is how the approximately 
14 to 15,000 other products that are under the jurisdiction of 
the CPSC are handled. I mean, you could--you can imagine the 
CPSC trying to write 15,000 different standards for every 
product out there. So the voluntary standard is enforceable.
    Mr. Burgess. Yes. Let me just interrupt you for a minute, 
because I am going to run out of time, and I want to be 
respectful of the other members.
    Now, Ms. Crow-Michael, on your--I think it is a Facebook 
page that is set up to the memory of your son, there is a list 
of I guess safety measures, for want of a better term. One 
mentions the age, another mentions a helmet. I mean, these are 
things that your organization recommends?
    Ms. Crow-Michael. First off, I don't have an organization, 
per se. But if we are talking about the fact that children 
shouldn't be on them, then I would have to say, what about 
Karen Harwood, 46, or Andrea Jones, who is 34?
    Mr. Burgess. And that is an excellent point, and I was 
going to ask Mr. Warfield, is there--you have studied this for 
a long time.
    Mr. Warfield. Yes.
    Mr. Burgess. Does, you know, the age placarding may be one 
thing, but does there--I want to say this as nicely as I can, 
but does body mass make a difference? That is, the lighter the 
driver--because most of the people older than age 16 that Ms. 
Crow-Michael mentioned on her list, most of those were women, 
so presumably of lighter body weight. Does that make a 
difference? Is that something that you have studied?
    Mr. Warfield. Not the weight itself, sir. What I see time 
and time again with these machines, it is operator error. It 
has almost nothing to do with the design of the vehicle. Please 
let me carry it one step further here. I have been operating 
these machines since 1985. I currently have 13 ATVs. I have 
four ROVs. I have a brand-new one coming in today. I am on 
those ROVs every day, either maintenance or through training. I 
have never rolled an ROV over. I have never rolled an ATV over. 
I have operated these machines in every State in the United 
States, including Alaska and Hawaii, except for North Dakota. I 
don't know why I missed that on North Dakota.
    But what I am getting at is I put these machines through 
their paces, through training, through an advocate of riding. I 
wear a helmet, I make sure the proper age person is operating 
the machine. I follow the guidelines. So what I am saying is, I 
have trusted this industry. I have trusted this industry that 
they have shown me--they have given me and my family a vehicle 
that is safe to operate. I am really concerned that now CPSC is 
saying, wait a minute, there is something wrong here.
    And to answer your question, why wait? I have been 
operating a machine that was perfectly capable of doing 
everything I wanted. If we are going to make a change, let us 
make sure that change is not a negative change.
    Mr. Burgess. All right. I am going to ask you to hold that 
thought, and the Chair will recognize Ms. Clarke. Five minutes 
for questions, please.
    Ms. Clarke. Thank you, Mr. Chairman. I thank the Ranking 
Member, and I thank our witnesses for their testimony here 
today. It has been more than a half a decade since the Consumer 
Product Safety Commission issued the advance notice of proposed 
rulemaking in 2009. Since then, CPSC has conducted thorough 
research to determine the appropriate mandatory standards for 
ROVs. CPSC staff reviewed more than 550 ROV related incidents, 
335 of which resulted in the death of the driver, or passenger, 
or both. Each incident was reviewed by a multi-disciplinary 
team, included--including an economist, human factors engineer, 
a health scientist, and a statistician. The Commission also 
worked with FEA Limited, a CPSC contractor, to create a ROV 
rollover simulator from scratch. In addition to the agency's 
own data collection, this year the CPSC also held a 7-hour 
public meeting in which the Commission heard testimony from and 
asked questions of witnesses both for and against the proposal. 
By any traditional measure, internal research, hypothetical 
simulation, incident review, and public input, the Commission 
has conducted a thorough investigation and has more than enough 
information to issue appropriate standards.
    Ms. Crow-Michael, your son was not the only person affected 
by weak safety standards that allowed Yamaha to continue 
selling defective versions of the Rhino ROV. In 2009 the 
Consumer Product Safety Commission estimated that 59 people 
were killed riding the Rhino. In fact, the Rhino incident--
accident epidemic was one of the primary drivers of the 
Commission's original rulemaking. But H.R. 999 would force the 
CPSC to contract with the National Academy of Sciences to 
conduct further research before implementing these reasonable 
and thoroughly tested standards. So my question to you, Ms. 
Crow-Michael, is do you think more data is needed to determine 
the ROVs that are currently on the market are unsafe?
    Ms. Crow-Michael. CPSC, I think they have worked hard to 
get the data that they have. They have spent money to gather 
and understand that data. More delay puts and all people at 
serious risk of injurly [sic]--injury or death, I am sorry. But 
I don't think more data is needed. I think it has been enough 
time, and I--and, like I said before, waiting for more data is 
waiting for more death.
    Ms. Clarke. Then let me just follow up with that question. 
You have suffered an unspeakable loss because of an unsafe ROV. 
Do you think that the CPSC is rushing to judgment in proposing 
standards for a recreational activity responsible for more than 
330 deaths in the last decade?
    Ms. Crow-Michael. No.
    Ms. Clarke. I thank you. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Burgess. Chair thanks the gentlelady, gentlelady yields 
back. Chair recognize the gentleman from Kentucky, 5 minutes 
for questions, please.
    Mr. Guthrie. Thank you, Mr. Chairman, and thank you all for 
being here to testify today. I have a question for Mr. 
Pritchard. I notice in your testimony you mention that the 
ROHVA is accredited by the American National Standards 
Institute to develop standards for the equipment, 
configuration, and performance of ROVs. Can you tell us more 
about this process, and how voluntary safety standards have 
been developed over the last few years, and does this process 
involve the CPC? I know you touched on it a little bit, but how 
that process of voluntary standards that are mandated, and is 
the CPSC involved?
    Mr. Pritchard. Absolutely, and cut me off when you get 
tired of listening, because I could talk about this all day. 
ROHVA was formed in 2007. The work on a voluntary standard 
began in 2008, so essentially almost immediately. In 2010 a 
voluntary standard was developed and published, then another 
version in 2011, and another version in 2014 reflecting the 
evolving technology.
    The way the process works is you get the process started 
through a procedure mandated by--it is ANSI [ph], that is the 
acronym, for this process. You put out a proposed draft 
standard to the canvas, and the canvas is made of a variety of 
stakeholders, and the stakeholders include--in every iteration 
has included the CPSC. It has included consumer groups. It has 
included industry. It has included user groups. It is a broad 
swath. And the way this works is people get the draft, the 
canvasees comment, and submit their comments back in. The 
comments are shared with everyone on the canvas, then ROHVA 
responds to those comments. Each one has to say, your 
suggestion for this area, say seat belts, here is our response.
    Then the canvas gets all of those comments from ROHVA back 
to the canvasee, so everyone gets to see this full exchange of 
information, and then a consensus is built around the voluntary 
standard. It is then sent to ANSI, here is how we did it, and 
ANSI checks that process and verifies that you followed the 
ANSI procedure. When ANSI approves it, then it becomes 
official, and ultimately a book, for lack of a better word, is 
published, and that becomes the standard by which all of the 
vehicles subject to that voluntary standard must conform.
    Mr. Guthrie. So then it becomes mandatory?
    Mr. Pritchard. It is voluntary----
    Mr. Guthrie. So what is the difference between mandatory 
and voluntary, then?
    Mr. Pritchard. Sure. It is voluntary in the sense of--it is 
developed by stakeholders, but it is enforceable. Mandatory 
means the CPSC imposes what it thinks is the best approach. And 
where we are now is at an impasse between a voluntary standard 
that is brand new, that just came out in September 2014, and a 
mandatory standard, or at least a proposal for a mandatory 
standard, based on the old standard, but a mandatory standard 
proposed by the CPSC. And the engineers and industry just think 
CPSC has got this wrong.
    Mr. Guthrie. Well, was the voluntary standard better? 
What--was it more likely to protect life than the mandatory 
standard?
    Mr. Pritchard. So----
    Mr. Guthrie. What are the critical differences, and why is 
yours better?
    Mr. Pritchard. So there are three--what I call three 
fundamental differences between the two. One is on vehicle 
handling. The CPSC wants to impose something called an 
understeer mandate. Every vehicle must understeer, and I can 
tell you about that. The next is testing lateral stability. The 
CPSC's test for lateral stability, frankly, suffers from 
problems with repeatability and reproducibility, which the CPSC 
is conducting testing to address right now. The final piece is 
seat belts. CPSC has proposed a seat belt interlock which would 
essentially prevent the vehicle from moving above 15 miles an 
hour if the seat belts aren't moved in both the driver and the 
passenger seat.
    Now, in the driver seat, there is actually a lot of 
agreement, and the voluntary standard includes that as an 
approach. The dispute really is over the passenger seat. CPSC 
commissioned a study of the passenger seat interlock. They just 
got the results I think in February. They published them in 
March. So they got these after the voluntary standard was voted 
out. And the study confirmed what industry had been telling--
that we have heard from our own consumers, which is no one 
wants this passenger side seat belt interlock because drivers 
don't want to lose control of their vehicle. You add on top of 
that the technical challenges, which would be if you put your 
dog in the seat, your toolbox in the seat--this is an area for 
which there is no answer.
    And the final wrinkle on this is that even on the driver's 
side seat belt interlock, you--it doesn't work with a diesel or 
carbureted engine, because it has to be talking with a 
computer. Computer has to talk from the seat belt through the 
speed limited to tell it that we have a connection here. So 
that is one small example of what is a, frankly, complex area. 
And the CPSC's engineers, while I believe well intentioned, 
don't have this right.
    And I want to add, we didn't get--we went through this 
voluntary standard process last year, which I didn't think the 
CPSC was very engaged in. A better way to put that, though, is 
that they seem to be much more engaged with industry now. And 
there is a meeting taking place right now between industry and 
CPSC staff to discuss the voluntary standards. That is the path 
forward.
    Mr. Guthrie. Thank you. And, before I yield back, if I 
could ask--I want to say, Ms. Crow-Michael, thank you for 
coming. Your advocacy is very important, and thoughts and 
prayers are with you. But thank you for taking this cause, and 
hopefully we can come to the right standard and do the right--
and have the right thing as a result. Thank you.
    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman. Chair recognizes Ms. Schakowsky for the purpose of a 
unanimous consent request.
    Ms. Schakowsky. I would like to put on the record the 
statement of G.K. Butterfield; the statement of John Sand, 
father of an ROV victim; letters from the American Academy of 
Pediatrics; letter from various consumer groups; testimony of 
Rachel Weintraub of the Consumer Federation of America before 
the CPSC; Citizens' Report that Ms. Crow-Michael referred to in 
her testimony. We will add that to the permanent record.
    Mr. Burgess. Without objection, so ordered.
    Chair would just note I offered Ms. Schakowsky a follow-up 
question. She declined. I did have one follow-up question that 
I wanted to ask.
    Ms. Crow-Michael, your son was injured on the Yamaha Rhino 
450. Just ask the question of anyone on the panel, is that 
particular model still available? Is that something that is 
still sold on the market?
    Mr. Pritchard. I can address it.
    Mr. Burgess. Please.
    Mr. Pritchard. That vehicle is not sold. In fact, you are 
talking about a vehicle from 2007, if I recall your testimony 
correctly. We are now three voluntary standards past that, so 
the technology has evolved beyond that. I can add, there are 
tens of thousands of those Rhinos still in use that people 
enjoy, at this point have probably put on hundreds of 
thousands, if not more, hours of use. But, no, the technology 
for these vehicles has evolved, and we are now in a new 
standard.
    Mr. Burgess. But you could still buy one on Craigslist?
    Mr. Pritchard. Yes, I would guess.
    Mr. Burgess. Yes. So it is going to be an informational 
challenge to get information to people who may be new 
purchasers of old machines.
    Mr. Pritchard. But those vehicles--and, respectfully, are 
not defective, period--I think that these incidents are more 
complicated than what we have heard today. I don't think that 
is the focus of today. I think the focus of today is, can we 
get this right between industry and the CPSC, and if the CPSC 
just won't listen to industry, they won't listen to the folks 
who make these vehicles, maybe they will listen to the National 
Academy of Sciences.
    Mr. Burgess. Very well. Chair wishes to thank all members 
of the panel. Ms. Crow-Michael, I just echo what Mr. Guthrie 
said. I am sure every member of the subcommittee extends to you 
our condolences for your loss.
    Seeing that there are no further members wishing to ask 
questions, before we conclude, I would like to submit the 
following documents for inclusion in the record by unanimous 
consent: statement for the record from Commissioner Marietta 
Robinson from the Consumer Product Safety Commission; a 
letter--we already did Mr. Olson's letter; a response letter 
from Chairman Elliot Kaye to Chairman Olson.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record. I ask the witnesses to submit their response within 
10 business days upon receipt of the questions. Without 
objection, again, my thanks to the panel, and thank you for 
staying with us through a long morning. Without objection, the 
subcommittee is adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    As one of the smaller agencies that this committee 
oversees, the Consumer Product Safety Commission has a 
critically important mission: to protect consumers against 
unreasonable risks of injury from consumer products.
    Over 15,000 different products fall within the Commission's 
jurisdiction-from toys and baby cribs to swimming pools and 
recreational off-highway vehicles. The Commission's work is 
critically important, but over the years there have been many 
issues raised with the Commission's implementation of its 
mission. When the Commission overreaches, it can jeopardize 
safety and erode Congress' trust. I have a responsibility to 
families in southwest Michigan to ensure the CPSC is focusing 
on its whole mission of safety, and not just on headlines or a 
few interest driven priorities.
    Today, I am pleased to see Chairman Elliot Kaye, as well as 
Commissioners Ann Marie Buerkle and Joseph Mohorovic before the 
subcommittee for the first time in their new capacities. And 
Commissioner Adler, we welcome you back. I would also like to 
welcome the witnesses of the second panel here to talk about 
Mr. Pompeo's bipartisan legislation, H.R. 999.
    Oversight of an agency with such broad jurisdiction is 
critical to ensuring unsafe products are either stopped from 
coming into the stream of commerce or are taken off the shelves 
in a seamless and timely manner. I look forward to hearing from 
the Commissioners about issues currently before them as well as 
their budget and regulatory priorities for the upcoming fiscal 
year. In particular, I would like an update on the progress 
being made on third party testing burdens that impact small 
businesses.
    I would also like to hear more about how the Commission 
prioritizes consumer education initiatives for known hazards in 
specialized circumstances, such as the newly announced ``Best 
for Kids'' program for window coverings, and how working with 
industry has provided opportunities for additional outreach. We 
have seen an increase in company-driven safety initiatives, 
ranging from this year's Super Bowl ads to the self-directed 
recall of Fitbit activity bands last year. The potential for 
cooperation and partnerships should not be overlooked when 
consumer safety is at stake.
    Everyone in this room shares the common goal of protecting 
consumers. Today's hearing is a positive step and I look 
forward to continuing to work with my colleagues on the off-
road vehicles and other issues.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Mr. Kaye's answers to submitted questions have been 
retained in committee files and also are available at  http://
docs.house.gov/meetings/IF/IF17/20150519/103481/HHRG-114-IF17-
Wstate-KayeE-20150519-SD005.pdf.]


                                [all]
</pre></body></html>
